<html>
<title> - WELFARE REFORM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






                             WELFARE REFORM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2000

                           Riviera Beach, FL

                               __________

                             Serial 106-99

                                Riviera 
                               Beach, FL_

         Printed for the use of the Committee on Ways and Means



                   U.S. GOVERNMENT PRINTING OFFICE
69-754                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of January 5, 2000, announcing the hearing..............     2

                               WITNESSES

Florida Department of Children and Families:
      Hon. Kathleen A. Kearney, Secretary........................    19
      Don Winstead, Welfare Reform Administrator.................    24
Gulfstream Goodwill Industries, Inc., Marvin A. Tanck............    39
Lockheed Martin IMS, Gerald H. Miller............................    47
Palm Beach Workforce Development Board, William E. Pruitt, Jr....    42
Redemptive Life Fellowship, and National Center for Faith Based 
  Initiative, Bishop Harold Calvin Ray...........................    37
Seven Pillars Group Inc., Corletta N. Clay.......................    49

                       SUBMISSIONS FOR THE RECORD

Fowler, Hon. Tillie K., a Representative in Congress from the 
  State of Florida, statement....................................    59
Miami-Dade/Monroe WAGES Coalition, Riviera Beach, FL, statement..    60

 
                             WELFARE REFORM

                              ----------                              


                        MONDAY, JANUARY 24, 2000

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1 p.m., in a 
hearing room of the Port Center, 2051 Martin Luther King 
Boulevard, Riviera Beach, Florida, Hon. Nancy L. Johnson 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
January 5, 2000
No. HR-13

                   Johnson Announces Field Hearing on

                             Welfare Reform

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a field hearing on welfare reform. The 
hearing will take place on Monday, January 24, 2000, in the hearing 
room of the Port Center, 2051 Martin Luther King Boulevard, Riviera 
Beach, Florida, beginning at 12:45 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include State and local officials, private contractors 
participating in the county welfare reform program, churches 
participating in welfare reform, and a participant in the program. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    This hearing is the continuation of a series of field hearings 
across the country on welfare reform. The Subcommittee is expected to 
conduct additional hearings in other locations.
      
    The Subcommittee's goal is to learn how welfare reform is being 
implemented in States and local communities across the nation. During 
this series of hearings, State and local witnesses are describing their 
programs and the impacts their programs are having on welfare 
caseloads, employment, the economic well being of families, and the 
local economy.
      
    ``Thanks to welfare reform, welfare rolls are down by more than 50 
percent and more former welfare recipients are working and gaining 
independence. This is a great start. To build on this success, Congress 
is watching the progress of welfare reform very carefully--both in 
Washington and around the country--to ensure that our new approach is 
helping families improve their lives,'' said Chairman Johnson in 
announcing the hearing.
      

FOCUS OF THE HEARING:

      
    The Subcommittee expects to learn details about the welfare reform 
programs being conducted in both the State of Florida and in Palm Beach 
County. Witnesses are expected to describe specific impacts on 
families, welfare dependency, employment, the welfare caseload, and 
communities.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:


    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Monday, 
February 7, 2000, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements, 
other than invited witnesses, wish to have their statements distributed 
to the press and interested public at the hearing, they may deliver 150 
additional copies (2-sided) for this purpose to the district office of 
Representative Mark Foley, 4440 PGA Boulevard, Suite 406, Palm Beach 
Gardens, Florida 33410, by close of business on Wednesday, January 19, 
2000.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are avilable on 
the World Wide Web at ``http://waysandmeans.house.gov''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>

    Chairman Johnson. Welcome and good afternoon, everyone. It 
is a real pleasure to have so many here who are going to 
testify and those who are here with us just to provide 
information.
    [Pause.]
    I am Congresswoman Nancy Johnson from Connecticut and I 
chair the Human Resources Subcommittee of the Ways and Means 
Committee. The jurisdiction of this Subcommittee is welfare, 
foster care and many other children's services, unemployment 
compensation and a number of other areas.
    And we are very pleased to be here today, both to visit 
your Work force Development Center and to take testimony from 
state officials and others, to see how welfare reform is 
working for the people. We are holding these hearings in 
various parts of the country because once you make law in 
Washington, you really have to see what happens across the 
nation. And through that process of oversight, then you can 
adjust the legislation according to our experience in the 
streets of America.
    Oversight is about as important as writing the original 
legislation. In fact, welfare reform developed--the federal 
Welfare Reform Act--developed from the experience of states, 
and the experience of both recipients and those who provided 
the services; and now it is our job to see that the new law 
does serve people more effectively, as we had hoped it would.
    The statistics are terrific and I am pleased about that, I 
am proud of that. And as we went through this Center, it was 
very interesting to realize that many of these same services 
could have been provided under the old law. We simply did not 
think that way. The new law has radically changed the way both 
providers and beneficiaries think, not only about the system 
that is there to help them, but their own lives and the 
opportunities as free people that are available to them. So it 
has stimulated a profound level of reform in America and that 
is always a good thing. It also means that you need to look and 
see where it is working well, where it could be working better, 
and perhaps the law needs to be adjusted.
    In the last year on the floor of the House, we did adjust 
part of our welfare legislation, the Welfare-to-Work Bill, to 
make it work better because there were technical problems. So 
oversight does feed back to us very important information and 
does directly affect our work. And it is that dialog between 
people and their life experience and their elected 
representatives that creates law. And that is how we govern 
ourselves, that is democracy.
    So what is going on here today is extremely important, and 
I thank my Florida colleagues for having gotten us to this 
place that has done such an excellent job and has so much good 
information to offer us.
    I would also like to thank my colleague and Ranking Member 
Ben Cardin, who has been really an outstanding Ranking Member 
of this Committee, we work closely together, and he has 
enormous expertise in his own district in many of these areas. 
It is not always that members come with such background and 
such dedication as Ben, and I enjoy working with him and I 
appreciate his making the trip down here.
    Before we get into the formal opening statements, since I 
am not going to do that this time, I just wanted to welcome 
you. I want to recognize and offer to my friend Clay Shaw the 
opportunity to say a few words.
    Clay was Chairman of the Human Resources Subcommittee when 
the welfare reform legislation was developed. And whenever you 
are developing a really new approach like the first Clean Air 
Act, you know, or the first Clean Water Act, it is a tremendous 
responsibility and what we call in our business, very heavy 
lifting. And it is really Clay Shaw who is most responsible as 
opposed to any other Member of Congress and the administration 
for having put in place law that has really opened opportunity 
and freed us all to pursue new vision. So I am very pleased 
that he could join us today.
    Congressman Shaw, who now chairs the Social Security 
Subcommittee of Ways and Means and has provided equal 
leadership to that Subcommittee at a different time, Clay, 
thank you for joining us.
    Mr. Shaw. Thank you. Nancy, thank you very much.
    And I must say the drafting of welfare reform was certainly 
a group effort. Many of the people here--Ron Haskins--probably 
the nicest thing I ever did for you was to let you inherit Ron 
Haskins as your staffperson. But when you see so many people 
here who have made this system work, who simply had faith in 
the human spirit, knew that people wanted to do better, but 
they need the self-confidence, they need the little nudge and 
they need the assistance and education in order to put together 
the tools to get off of welfare.
    The system we had was the cruelest of all. It paid people 
to do nothing and to stay in their place, and that is all the 
wrong messages to send out. There are so many people that I am 
going to get in trouble in starting to name them, but Jerry 
Miller, who is here, he is with Lockheed now, he was with the 
State of Michigan, who did some very early work. So many of the 
Governors, as his old boss, Engler, Tommy Thompson--I could go 
on and on with the list of the Governors that we were able to 
work with. There is not one person that can take credit for 
welfare reform, it was a joint effort and it ended up as a 
bipartisan effort, and that is very important because if the 
message went out that this was an initiative of one political 
party, it would have not in any way have enjoyed the success 
that we have.
    We had a lot of great people, I see Don and Kathleen who 
are going to be testifying, helped us out so much with children 
in foster care. Our Committee did wonderful things at removing 
racial barriers for adoption, but still that is such a tough, 
tough job that they have in finding and taking care of these 
kids and seeing that they do not fall through the cracks. I 
could go on and on, but I am not here to testify, I am just 
here to express my appreciation to you, Madam Chairman, and to 
Ben for bringing the Committee down here and being with us 
today.
    Mark and I share Palm Beach County, we are very proud of 
the job that is being done here and in going through this 
building today and having been through the building down in 
Delray and I understand there are five locations in all, to see 
the great success that we are having here in Palm Beach County, 
as we are indeed across the state of Florida.
    We truly are a leader in this area and I congratulate all 
of you here in this room on the job that you are doing to make 
this program such a success, when we have actually for the 
first time had a substantial decline in the welfare rolls and 
people are taking control of their lives, they are taking 
control of their future and they are setting themselves up as 
role models for their children, it is bound to be a much better 
life ahead for the kids and for the parents of these 
youngsters.
    So thank you for being here in Palm Beach County, we are 
very proud of what we have to show you. Thank you.
    Chairman Johnson. Now I would like to turn the hearing over 
to my colleague, Mark Foley, a member of the Human Resources 
Subcommittee, very dedicated member, who is a regular 
participant and a strong voice and represents this area. Mark.
    Mr. Foley. Let me thank you, Ms. Johnson, the Chair of the 
Committee, and Mr. Cardin, for coming down from Maryland and my 
colleague Clay Shaw.
    Obviously one of the reasons was to go around the country 
and hear from the actual people who are implementing the law 
and looking at novel ways in which to improve the law. It is 
easy to pass legislation and then go on our business and assume 
it is all going to be taken care of. But we want to make 
certain that no one is falling through the cracks. It is a lot 
to brag about, but also a lot to take care of to make certain 
people are actually being taken care of on the ground.
    I have a rather length introduction that I have been given 
to read, but again, I want to thank specifically the groups 
that have come before us today and will testify.
    One of my own success stories, Brea Almond, is in the room, 
who works here now at Work force Development. She came from a 
school that my father was principal of, South Area Alternative 
School, often referred to as a school of last resort. Kids, if 
they do not graduate there, they may not be going on any 
further in academic life or in the work force.
    Brea came and worked a little bit and volunteered in our 
office, she then got a scholarship to Lynn University, she 
graduated with honors. She is now here I believe the marketing 
director, marketing person, for Work force Development--oh, she 
says oh, no, I am not the director.
    [Laughter.]
    Mr. Foley. But just in a little personal perspective, to 
see somebody's life change and evolve from one, if you will, of 
despair, from some saying it could never happen for her, she 
would never get a chance, you might as well give up, to now 
being a very successful, productive and enthusiastic person. I 
am just delighted to see you here and I am proud of you.
    The Committee on Ways and Means played a central role in 
writing and passing the seminal 1996 Welfare Reform law. 
Although we are exceptionally proud of that law, we are well 
aware that laws are only as good as their implementation. Thus, 
we have been holding an extensive set of oversight hearings in 
Washington and we are in the midst of a series of field 
hearings to learn about how the law is being implemented around 
the country. Previously, we have conducted field hearings in 
Arizona, Nevada and Pennsylvania. Next month we plan to conduct 
another hearing in Maryland.
    Both our hearings in Washington and our field hearings have 
documented the remarkable success of welfare reform. The 
hearing, as well as evaluation studies and Census Bureau data, 
have shown a few rough spots, but on the whole, I think almost 
everyone who follows social policy has been amazed by the 
success of the welfare reform movement that has swept the 
country since 1994. By 1994, about half the states had been 
granted waivers to conduct their own welfare reform programs. 
Then national legislation was passed in 1996.
    In my opening remarks, I wanted to provide our audience 
with some idea of what welfare reform is all about and what our 
Committee has learned about its effects on children and 
families. This information will provide a good backdrop for our 
attempt to learn more about welfare reform in Florida and in 
Palm Beach County.
    The evidence that welfare reform is working.
    Our first chart, five steps to welfare transformation. This 
chart shows the major features of the 1996 welfare reform law.
    End cash entitlement. Under the old Aid to Families with 
Dependent Children (AFDC) program, millions of mothers became 
dependent on welfare because they were entitled to the 
benefits, which means that they got benefits regardless of 
whether they tried to work or took constructive action to help 
themselves. The entitlement system encouraged dependency 
because state and local program were legally prohibited from 
requiring recipients to work or prepare for work. The 1996 
legislation ended that entitlement.
    Block grant funding. The second major feature of welfare 
reform was that we began giving states a fixed sum of money 
each year rather than more money for each person they put on 
welfare and less money for every person that left welfare.
    Work requirements. Third, states are now required to put a 
specific percentage of their welfare caseload into work 
programs or be fined by the Federal Government. So far, every 
state has met that requirement.
    Sanctions. If an adult on welfare is required to work or 
prepare for work but does not meet the requirement, their 
benefit is reduced and in many states even terminated. 
Sanctions have given an entirely new tone of seriousness to the 
nation's welfare programs.
    Five year time limit. The day people sign up for welfare, 
they are told they have a lifetime total of 5 years of cash 
benefits. This new requirement has brought a great sense of 
purpose to both welfare caseworkers and welfare recipients. 
Simply put, recipients must succeed in achieving independence.
    These five characteristics of the new welfare system have 
been in place in every state since 1996 or 1997. Some of the 
features were in place in most states by around 1994. Taken 
together, these reforms constitute the most thorough reform of 
a major social program in American history. Now let us turn to 
an examination of the effects produced by these reforms.
    Chart number two indicates the caseload decline. This chart 
shows the history of enrollment in the new Temporary Assistance 
for Needy Families Program, known as TANF, and its predecessor 
program, Aid to Families with Dependent Children. I want to 
call your attention to three features of this graph.
    First, between the last fifties and 1994, there is nearly 
uninterrupted increase in the rolls. Notice that there are only 
a few years in which the caseload actually declines. Even when 
the economy is hot and jobs are plentiful, as was the case in 
the sixties and the eighties, the rolls did not go down.
    Second, notice the big increase in the late eighties and 
early nineties. No one has a complete explanation for this 
increase, but during a period of major economic growth of the 
late eighties, the rolls kept increasing.Third, and most 
important, look at the decline after 1994, modest at first but 
then almost a free fall after we passed the Federal reform law 
in 1996. We have now reached the point at which the average 
state has seen a 50-percent decline in its rolls and many 
states have seen a decline of over 70 percent. Nothing like 
this has ever happened in the history of American social 
policy.
    Chart number three, Federal funds per family on welfare. 
Because the welfare rolls have declined while funding has 
remained fixed, the states now have almost twice as much money 
per family on welfare as they had in 1994. This money, which 
can only be spent on children and families, means that the 
states can maintain their welfare benefit levels and still have 
lots of money for child care, transportation, training and 
whatever else is required to help the remaining families leave 
the welfare rolls.
    Chart number four, mothers and employment. This next chart 
shows the dramatic increase in the number of mothers entering 
the work force. The top panel shows the yearly average increase 
in employment by all single moms. In the years before 1996, the 
average increase was about 140,000 per year, but in 1996, the 
year welfare reform passed, the increase jumped to 197,000. 
This impressive increase, however, pales in comparison with the 
1997 increase of 412,000 people back in the workforce--by far, 
the largest increase ever.
    The bottom panel shows the increase in employment by never-
married mothers. These mothers are the poorest, the most likely 
to go on welfare, and the most likely to stay on welfare for a 
long time, and the least likely to work. And yet, between 1993 
and 1998, precisely the period during which welfare reform was 
being implemented and the rolls were declining, there was a 
whopping 40-percent increase in employment by never-married 
mothers.
    There can simply be no question that welfare reform has led 
to historic increases in employment, especially by the mothers 
most likely to be poor.
    Chart number five details poverty. The welfare caseload 
declined each year in 1995, 1996, 1997 and 1998 and poverty 
among minority children also declined. In fact, the decline in 
black child poverty in 1997 was the biggest decline on record.
    Chart number six, the new work support system. This chart 
shows why poverty declined so much when mothers went to work. 
What this chart shows is that the nation has had two 
revolutions. First, we had the welfare revolution that you read 
about in the papers and that is so widely known and popular 
among the American people. But second, we had a quieter 
revolution in the nation's work support system--the programs by 
which taxpayers subsidize the incomes of families that are 
trying to help themselves by working. This lesser known but 
equally essential work support system is composed primarily of 
child care, the Child Health Insurance Program, or CHIP, the 
child tax credit, Medicaid, and the Earned Income Credit.
    As this chart shows, all of these programs have expanded 
dramatically since 1984. In fact, if we had not passed the 
legislation that built the new work support system in 1999, we 
would be spending only $5.6 billion helping those low-income 
working families. But because we passed the new work support 
laws, on a bipartisan basis, the nation will actually spend 
almost $52 billion helping those deserving families.
    This is why we are able at last to roll up victories in the 
war against poverty. We reformed welfare to encourage or force 
able-bodied adults to leave welfare. Then we created a 
terrific, new work support system to subsidize income when 
able-bodied adults took low wages.
    Chart number seven shows the decline in children's poverty 
dated 1993 to 1998. This chart shows the decline in child 
poverty by a broad Census Bureau definition that includes 
income from all the programs in the work support system I just 
showed you. In just 4 years, the child poverty rate has 
declined from 17.5 percent to 12.9 percent, a decline of 26 
percentage points.
    How important is this achievement? In 1965, the nation 
decided to fight a war against poverty by creating hundreds of 
social programs and giving away billions of dollars in cash and 
benefits. Between 1965 and 1995, Federal and state governments 
increased spending on social programs by a factor of 10, from 
about $40 billion to nearly $400 billion in constant dollars. 
Despite all these new programs and all this new spending, the 
child poverty rate did not decline at all. So we threw billions 
of dollars at poverty and poverty won.
    The reason is now clear, we were fighting a war using the 
wrong weapon. Our main strategy was giving away benefits 
without requiring anything in return. Instead of poverty 
reduction, we got welfare dependency. Instead of helping people 
get back on their feet, we stuck them with a system that 
punished work. But now the nation has adopted a new strategy. 
We encourage and, where necessary, demand work. Then we 
supplement income with the growing work support system. As the 
poverty data in this chart shows, we have great success so far.
    No I do not want to leave the impression that we have 
solved every problem and there is nothing left to do. There are 
at least three problems that our Subcommittee wants to know 
about. First, not enough children are getting Medicaid after 
their family leaves welfare--we want to know why. And under 
Chairman Johnson's leadership, our Subcommittee will be 
exploring this issue in the months ahead. The second problem is 
the enrollment in food stamps is also declining. Frankly, the 
evidence seems to indicate that some of this decline is being 
caused by a stigma. Lots of families want to escape welfare 
completely and depend only on themselves and the less 
stigmatized parts of the work support system, like the earned 
income credit. So many families seem to be choosing not to 
receive food stamps. While admiring these families for their 
choice, we should make sure food stamps are available to 
families that need them.
    And finally, the evidence indicates that there is a small 
group of families at the bottom who are being left behind. They 
are leaving welfare, but they are not working. We need to know 
why they are not working and we need to develop better ways to 
help them. As the evidence I have summarized makes clear, there 
is a lot of money available to tackle this problem.
    Our Subcommittee on Human Resources has come here today to 
spread the word that welfare reform is working well and that we 
need to continue on the path we are on. We are making dramatic 
progress against poverty and we are making it the old-fashioned 
way--people are earning their way out of poverty.
    But we are also here because we want to know more about the 
details of the welfare reform in states and localities 
throughout the nation. I am proud that the Subcommittee has 
decided to visit this district and learn more about how our 
professionals and other citizens are handling welfare reform. 
We have, as Chairman Johnson has indicated, already learned a 
great deal by visiting the Palm Beach County Work force 
Development Board and I expect we will learn a lot more during 
this hearing.
    [The opening statement of Mr. Foley follows:]

Opening Statement of Hon. Mark Foley, a Representative in Congress from 
the State of Florida

                              Introduction

    The Committee on Ways and Means played the central role in 
writing and passing the seminal 1996 Welfare Reform Law. 
Although we are exceptionally proud of that law, we are well 
aware that laws are only as good as their implementation. Thus, 
we have been holding an extensive set of oversight hearings in 
Washington and we are in the midst of a series of field 
hearings to learn about how the law is being implemented around 
the country. Previously, we have conducted field hearings in 
Arizona, Nevada, and Pennsylvania. Next month we plan to 
conduct another hearing in Maryland.
    Both our hearings in Washington and our field hearings have 
documented the remarkable successes of welfare reform. The 
hearings, as well as evaluation studies and Census Bureau data, 
have shown a few rough spots, but on the whole I think almost 
everyone who follows social policy has been amazed by the 
success of the welfare reform movement that has swept the 
country since about 1994. By 1994, about half the states had 
been granted waivers to conduct their own welfare reform 
programs. Then national legislation was passed in 1996.
    In my opening remarks, I want to provide our audience with 
some idea of what welfare reform is all about and what our 
Committee has learned about its effects on children and 
families. This information will provide a good backdrop for our 
attempt to learn more about welfare reform in Florida and Palm 
Beach County.

                Evidence That Welfare Reform Is Working

Chart 1: Five Steps to Welfare Transformation.

    This chart shows the major features of the 1996 welfare 
reform law.
    <bullet> End Cash Entitlement. Under the old Aid to 
Families with Dependent Children (AFDC) program, millions of 
mothers became dependent on welfare because they were entitled 
to the benefits--which means they got the benefits regardless 
of whether they tried to work or took constructive action to 
help themselves. The entitlement system encouraged dependency 
because state and local programs were legally prohibited from 
requiring recipients to work or prepare for work. The 1996 
legislation ended the entitlement.
    <bullet> Block Grant Funding. The second major feature of 
welfare reform was that we began giving states a fixed sum of 
money each year rather than more money for each person they put 
on welfare and less money for every person that left welfare.
    <bullet> Work Requirements. Third, states are now required 
to put a specific percentage of their welfare caseload into 
work programs or be fined by the federal government. So far, 
every state has met its work requirements.
    <bullet> Sanctions. If an adult on welfare is required to 
work or prepare for work but does not meet the requirement, 
their benefit is reduced and in many states even terminated. 
Sanctions have given an entirely new tone of seriousness to the 
nation's welfare programs.
    <bullet> 5 Year Time Limit. The day people sign up for 
welfare, they are told that they have a life-time total of 5 
years of cash benefits. This new requirement has brought a 
great sense of purpose to both welfare case workers and welfare 
recipients. Simply put, recipients must succeed in achieving 
independence.
    These five characteristics of the new welfare system have 
been in place in every state since 1996 or 1997, and some of 
the features were in place in most states by around 1994. Taken 
together, these reforms constitute the most thorough reform of 
a major social program in American history. Now let us turn to 
an examination of the effects produced by these reforms.

Chart 2: Caseload Decline.

    This Chart shows the history of enrollment in the new 
Temporary Assistance for Needy Families program (TANF) and in 
its predecessor program Aid to Families with Dependent Children 
(AFDC). I want to call your attention to three features of this 
graph:
    First, between the late 1950s and 1994, there is a nearly 
uninterrupted increase in the rolls. Notice that there are only 
a few years in which the caseload actually declines. Even when 
the economy is hot and jobs are plentiful, as was the case in 
the 1960s and the 1980s, the rolls do not go down.
    Second, notice the big increase in the late 1980s and early 
1990s. No one has a complete explanation for this increase, but 
during a period of major economic growth of the late 1980s, the 
rolls kept increasing.
    Third, and most important, look at the decline after 1994, 
modest at first, but then almost a free fall after we passed 
the federal reform law in 1996. We have now reached the point 
at which the average state has seen a 50 percent decline in its 
rolls. And many states have seen a decline of over 70 percent. 
Nothing like this has ever happened in the history of American 
social policy.

Chart 3: Federal Funds per Family on Welfare.

    Because the welfare rolls have declined while funding has 
remained fixed, the states now have almost twice as much money 
per family on welfare as they had in 1994. This money, which 
can only be spent on children and families, means that states 
can maintain their welfare benefit levels and still have lots 
of money for child care, transportation, training, and whatever 
else is required to help the remaining families leave the 
rolls.

Chart 4: Mothers and Employment.

    This next chart shows the dramatic increase in the number 
of mothers entering the work force. The top panel shows the 
yearly average increase in employment by all single moms. In 
the years before 1996, the average increase was about 140,000 
per year. But in 1996, the year welfare reform passed, the 
increase jumped to 197,000. This impressive increase, however, 
pales in comparison with the 1997 increase of 412,000, by far 
the largest increase ever.
    The bottom panel shows the increase in employment by never-
married mothers. These mothers are the poorest, the most likely 
to go on welfare, the most likely to stay on welfare for a long 
time, and the least likely to work. And yet, between 1993 and 
1998, precisely the period during which welfare reform was 
being implemented and the rolls were declining, there was a 
whopping 40 percent increase in employment by never-married 
mothers.
    There can simply be no question that welfare reform has led 
to historic increases in employment, especially by the mothers 
most likely to be poor.

Chart 5. Poverty.

    The welfare caseload declined each year in 1995, 1996, 
1997, and 1998, and poverty among minority children also 
declined. In fact, the decline in black child poverty in 1997 
was the biggest decline on record.

Chart 6: The New Work Support System.

    This chart shows why poverty declined so much when mothers 
went to work. What this chart shows is that the nation has had 
two revolutions. First, we had the welfare revolution that you 
read about in the papers and that is so widely known and 
popular among the American people. But second, we had a quieter 
revolution in the nation's work support system--the programs by 
which taxpayers subsidize the incomes of families that are 
trying to help themselves by working. This lesser known but 
equally essential work support system is composed primarily of 
child care, the Child Health Insurance Program (or CHIP), the 
child tax credit, Medicaid, and the Earned Income Credit.

    As this chart shows, all of these programs have expanded 
dramatically since 1984. In fact, if we had not passed the 
legislation that built the new work support system, in 1999 we 
would be spending only $5.6 billion helping these low-income 
working families. But because we passed the new work support 
laws, mostly on a bipartisan basis, the nation will actually 
spend almost $52 billion helping these deserving families.
    That is why we are able at last to roll up victories in the 
war against poverty. We reformed welfare to encourage or force 
able-bodied adults to leave welfare. Then we created a 
terrific, new work support system to subsidize income when 
able-bodied adults took low-wage jobs.

Chart 7: Decline in Children's Poverty, 1993-1998.

    This chart shows the decline in child poverty by a broad 
Census Bureau definition that includes income from all the 
programs in the work support system I just showed you. In just 
four years, the child poverty rate has declined from 17.5 
percent to 12.9 percent--a decline of 26 percent.
    How important is this achievement? In 1965 the nation 
decided to fight a war against poverty by creating hundreds of 
social programs and giving away billions of dollars in cash and 
benefits. Between 1965 and 1995, federal and state governments 
increased spending on social programs by a factor of 10--from 
about $40 billion to nearly $400 billion in constant dollars. 
Despite all these new programs and all this new spending, the 
child poverty rate did not decline at all. So we threw billions 
of dollars at poverty and poverty won.
    The reason is now clear. We were fighting a war using the 
wrong weapon. Our main strategy was giving away benefits 
without requiring anything in return. Instead of poverty 
reduction, we got welfare dependency. Instead of helping people 
get back on their feet, we stuck them with a system that 
punished work. But now the nation has adopted a new strategy. 
We encourage, and where necessary demand, work. Then we 
supplement income with the growing work support system. As the 
poverty data in this Chart show, we are having great success so 
far.
    Now, I don't want to leave the impression that we've solved 
every problem and there's nothing left to do. There are at 
least three problems that our Subcommittee wants to know more 
about. First, not enough children are getting Medicaid after 
their family leaves welfare. We want to know why--and under 
Chairman Johnson's leadership, our Subcommittee will be 
exploring this issue in the months ahead. The second problem is 
that enrollment in food stamps is also declining. Frankly, the 
evidence seems to indicate that some of this decline is being 
caused by stigma--lots of families want to escape welfare 
completely and depend only on themselves and the less 
stigmatized parts of the work support system like the Earned 
Income Credit. So many families seem to be choosing not to 
receive food stamps. While admiring these families for their 
choice, we should still make sure food stamps are available to 
families that need them.
    And finally, the evidence indicates that there is a small 
group of families at the bottom who are being left behind. They 
are leaving welfare but not working. We need to know why they 
are not working and we need to develop better ways to help 
them. As the evidence I have summarized makes clear, there is 
lots of money available to tackle this problem.

                               Conclusion

    Our Subcommittee on Human Resources has come here today to 
spread the word that welfare reform is working well and that we 
need to continue on the path we are on. We are making dramatic 
progress against poverty and we're making it the old fashioned 
way: People are earning their way out of poverty.
    But we're also here because we want to know more about the 
details of welfare reform in states and localities throughout 
the nation. I am proud that the Subcommittee has decided to 
visit my district and learn more about how our professionals 
and other citizens are handling welfare reform. We have, as 
Chairman Johnson has indicated, already learned a great deal by 
visiting the Palm Beach Workforce Development Board and I 
expect we will learn a lot more during this hearing.
[GRAPHIC] [TIFF OMITTED] T9754.001

[GRAPHIC] [TIFF OMITTED] T9754.002

[GRAPHIC] [TIFF OMITTED] T9754.003

[GRAPHIC] [TIFF OMITTED] T9754.004

[GRAPHIC] [TIFF OMITTED] T9754.005

[GRAPHIC] [TIFF OMITTED] T9754.006

[GRAPHIC] [TIFF OMITTED] T9754.007


                                <F-dash>


    Mr. Foley [presiding]. I am delighted now to recognize our 
first two panelists--excuse me, my apologies. Let me recognize 
the Ranking Member, the Democrat from Maryland, a good fellow 
and a friend personally, who I will tell you from my own 
observation, when it comes to this particular issue of people, 
of taking care of citizens and making certain no person has 
been left behind, there is no better team members in 
Washington, if you will, that are looking out for the citizens 
as are Nancy Johnson and especially my dear friend, Ben Cardin.
    Mr. Cardin. Let me thank Congressman Foley for those very, 
very kind comments, and I want to thank both Congressman Foley 
and Congressman Shaw for their very warm hospitality here in 
Florida. They both thanked Nancy Johnson and me for coming 
here, but if you come from Connecticut and Maryland with all 
that snow and ice, it did not take much convincing--in fact, we 
are very pleased you have a Congress Avenue here, we might want 
to make this permanent.
    [Laughter.]
    Mr. Cardin. So let me thank you for--and we also tried to 
solve your drought problem. I do not know if we have done a 
good job or not, but Congressmen take credit for everything, so 
we will take credit, whether it is good or bad, you come out 
ahead.
    But I really do want to compliment my colleagues that are 
here. Ms. Johnson understands very well that one of the 
principal roles of our Committee is to oversight the welfare 
reform proposal, to try to see what is working and what is not 
working.
    During the course of enacting welfare reform, we did have a 
rather contentious debate in Washington and there are still 
some today who refuse to recognize the success that we have had 
in welfare reform in getting down the welfare rolls. There are 
others who think the problems have been solved. But I think you 
will find from our commitment to come out to field hearings 
that we understand yes, we are on the road to improving our 
welfare system in this country but we have not yet accomplished 
our goal, there is still a lot more that needs to be done.
    And I compliment Ms. Johnson for coming out to the 
communities. It is important that we hear how it is working 
here in Palm Beach, Florida and other parts of the nation. We 
pass the laws in Washington but we depend upon the local 
communities really to implement welfare reform. It is a 
partnership, a Federal-local government partnership.
    And one of the issues that I am particularly interested in 
is how the resources are being used here locally. We have a 
strong economy, the welfare rolls are down. We made a 
commitment to block grant the funds, as Representative Foley 
indicated. The money is here. We hope that you are using not 
only the moneys that we are providing, but your local 
resources, to deal with the more difficult problems that are 
out there and not just using the money for other purposes. 
Because as Representative Foley pointed out, we still have a 
lot further to go before we can claim success.
    So let me sort of add to the list that Representative Foley 
pointed out. I agree with him completely that we need to look 
at the food stamp and Medicaid rolls and find out why people 
who are eligible are not enrolled in those programs. And we 
need to look at those individuals who have multiple problems 
that are on the welfare rolls, to deal with their particular 
needs. But I would also like to add a couple of other concerns 
that I have as to whether welfare reform in fact is working as 
we have intended.
    One has to do with safe and affordable child care. Are we 
doing an adequate job in order to remove that obstacle that is 
in the way of many American families.
    Then last, are we making real progress in permanently 
dealing with poverty in this nation. Yes, we have seen the 
poverty numbers go down, but those that are in poverty, in many 
cases, are worse off today than they were 5 years ago. We need 
to take a look at that. Yes, people are leaving welfare, some 
are getting jobs. Are they staying with those jobs? Are their 
incomes going up? Are we making a real dent on poverty in this 
nation?
    Quite frankly, looking at the Work force Development Center 
here, I have reason I think to be optimistic that we can deal 
with those problems. This center is a tremendous asset to 
people so that they can not only work themselves out of 
poverty, but remain out of poverty and enjoy more of the fruits 
of our good economy.
    So I hope that we will use all the tools that we have 
available, the creativity of local government--I should also 
point out the EITC credit has certainly helped in this regard 
to help families out of poverty and it also helps to have a 
good economy.
    Working together, I think we can continue the progress we 
have made during the past 5 years and I look forward to hearing 
from our witnesses today.
    Mr. Foley. I am reminded to tell the witnesses that we are 
under the 5-minute rule, as are Members of Congress. And we 
will first turn to Judge Kathleen Kearney, who is obviously the 
Secretary of the Florida Department of Children and Families. 
We welcome you here and you may begin.

   STATEMENT OF HON. KATHLEEN A. KEARNEY, SECRETARY, FLORIDA 
              DEPARTMENT OF CHILDREN AND FAMILIES

    Ms. Kearney. Thank you, Congressman.
    Madam Chair and Members of the Subcommittee, I would like 
to commend you for coming into the field, because you are 
actually seeing the results of your architecture, the fact that 
you have been leaders in welfare reform in the United States. 
It must be very rewarding for you to come out and to see the 
human face that has now been put on those efforts.
    I am Kathleen Kearney, I am the Secretary of the Florida 
Department of Children and Families. Immediately prior to my 
appointment by Governor Bush, I was serving as a circuit court 
judge in Broward County, Florida, where for ten and a half 
years, I presided over child abuse cases in the dependency 
court arena. So I have testified before this Committee before 
in the area of foster care, particularly in the Adoption and 
Safe Families Act. So my remarks will be in the context of what 
I saw both in the courtroom day in and day out and what I am 
now seeing as the Secretary of the Florida Department of 
Children and Families.
    First let me tell you that as of October 1 of 1996, every 
juvenile judge in the state of Florida, probably in the United 
States, was holding their breath, wondering if in fact welfare 
reform would instead increase children coming into care because 
their parents would not be able to care for them if they had 
benefits cutoff. So all of us were very concerned about whether 
when that time limit was reached, you would then see people 
literally falling off the cliff and more children coming into 
the custody of the Department and under the jurisdiction of the 
courts.
    That did not happen. In fact, the very opposite happened.
    Day in and day out, there was not a day that passed in my 
courtroom that I did not see a mother or a father who would 
come in to me in court for a judicial review while their 
children were in foster care and bring to me their first 
paycheck that they had ever earned. And the self-esteem that 
came with that that said I have a job, I am someone, was 
something that did more than anything to help them to be 
encouraged that the system does work and that they could in 
fact be a good parent. So in many ways, your welfare reform 
architecture also helped to reform the child protection system 
and laid good groundwork for your work with Adoption and Safe 
Families Act.
    Mr. Winstead, who is the Welfare Reform Administrator for 
Florida, will be talking specifically with you about the issues 
that you had addressed, most particularly Medicaid, food 
stamps, whether or not those problems exist since we have been 
successful in moving people from welfare to work.
    I would like to point out to you though that the purpose of 
my testimony is to strongly encourage you to do what you have 
in the past, and demonstrate your leadership in ensuring that 
the states have the flexibility to fully implement welfare 
reform and to continue the great strides and successes that we 
have made. I am particularly proud of the fact that Florida, 
among the eight leading states that have 60 percent of 
reduction in welfare rolls, Florida is number one. I think we 
are number one because of the flexibility that you have 
provided to us through this law.
    We have used the four purposes of TANF that you gave us and 
we have looked at all of them--not merely moving people from 
welfare to work, but we have placed a lot of emphasis on 
preventative measures, to prevent people from coming onto the 
rolls and people-- once they have gone to work, to prevent them 
from having to return to welfare because they did not have the 
necessary support services in place.
    If you will look at what we have done particularly in our 
child care and child care for the working poor. In the proposed 
budget that Governor Bush just unveiled last week, you will see 
that there is contained within that, with the use of TANF 
funds, slots for 13,000 additional children, slots that are 
absolutely critical in assisting working parents, so that they 
know that their children are in safe, affordable child care. 
That is something that we have used the TANF funds for very 
successfully.
    We have also used the TANF funds to fund what we call our 
Relative Care giver Program. Children that would be in foster 
care, but for the ability of a relative to have TANF funds--and 
in Florida, we are having that at 70 percent of the Board rate 
you would give for foster parents. These relatives now are able 
to keep these children. In the past, before this program was 
available, these children would have been in foster care.
    Again, drawing on my court experience, a day did not go by 
that I did not have a grandmother or an aunt that would come in 
and say I would keep these children but for the fact, I do not 
have child care, or but for the fact I do not have money to 
feed them. Therefore, I am turning them over to the state.
    I encourage you to continue the flexibility with the states 
that right now, if you do not do that, you can pay me now or 
pay me later, because my IV-E funds will go up because of the 
children that will be coming into care. So I encourage you to 
keep your leadership high in this arena.
    Thank you.
    [The prepared statement follows:]

Statement of Hon. Kathleen A. Kearney, Secretary, Florida Department of 
Children and Families

    Madam Chairman and members of the subcommittee, I am 
pleased that you have come to Florida as part of your review of 
welfare reform across the country. Your subcommittee played a 
central role in the creation of the Temporary Assistance for 
Needy Families (TANF) program and led the way in providing 
states with the flexibility to use block grant funds to design 
innovative programs to meet the purposes of TANF. We believe 
Florida has been at the forefront of state welfare reform 
efforts and I want to share with you information about some of 
our remarkable accomplishments as well as some of the 
challenges we face in the future.
    I am Judge Kathleen A. Kearney, Secretary of the Florida 
Department of Children and Families. I was appointed by 
Governor Jeb Bush on January 5, 1999 and was confirmed by the 
Florida Senate on March 2, 1999. Prior to accepting this 
position, I served as a county and circuit court judge in Fort 
Lauderdale, Florida for ten and one-half years. I have elected 
``retired judge'' status to serve as Secretary of the 
Department. Throughout my active tenure on the bench, I 
presided over dependency court proceedings and have seen the 
connection between welfare reform and the child welfare system 
in the faces of thousands of children and their families. I was 
appointed by the Florida Supreme Court to chair Florida's 
Dependency Court Improvement Program (DCIP) in 1996 and still 
serve as a member of the DCIP oversight committee.
    The Florida Department of Children and Families is the 
state agency that administers the TANF block grant. Our program 
is called the WAGES program, which stands for Work and Gain 
Economic Self-Sufficiency. The overall governance of the WAGES 
Program is set up in a corporate model. There is a state Board 
of Directors. Half of the members of the State WAGES Board are 
from the private sector and the rest are heads of state 
agencies or other entities that are involved in the 
implementation of the program. The chairman of the State Board 
is Mr. Michael Poole, a businessman from Orlando. As Secretary 
of the Department of Children and Families, I am a member of 
the State Board of Directors.
    In addition to establishing a state board of directors to 
oversee the program, Florida has devolved much of the 
responsibility for local management and oversight of the 
program to 24 local WAGES coalitions. Our state law explicitly 
provides local communities with the option of integrating their 
WAGES coalition with the Regional Workforce Development Board. 
This is the model that has been adopted in Palm Beach County. 
When you hear from the Workforce Development Board of Palm 
Beach County in your next panel, you will be hearing from an 
organization that has responsibility for both the WAGES program 
and the Workforce Development system.
    In their role as the WAGES Coalition, this organization has 
the responsibility of developing the local service delivery 
plan and the local financial plan for welfare reform. This plan 
is then subject to review and approval by the State Board. This 
approach provides a uniform framework throughout the state but 
permits significant local flexibility in program design and 
operation.
    My department's role in the program focuses most 
specifically on eligibility and administration of the 
subsidized child care program. We also are the state agency 
that administers the family safety program, including 
protective investigations and child welfare services, substance 
abuse and mental health programs, developmental service 
programs, adult services including adult protective 
investigations, refugee programs and economic self-sufficiency 
programs. Currently, the Department employs almost 27,000 
people, administers over 1,700 contracts and has an annual 
budget of $4 billion.
    In my testimony today, I want to provide you with an 
overview of accomplishments in Florida. I have asked Don 
Winstead, our Department's welfare reform administrator to 
provide you with more specific information in his testimony 
about the trends we are seeing in the caseload and some of the 
dynamic changes in historical caseload patterns that we are 
experiencing. For my comments, I will discuss the overall 
results of the program, share with you information about some 
of the new programs in Florida that utilize TANF block grant 
funds to strengthen vulnerable families as well as the role 
TANF funding plays in the child care program. I'll conclude my 
remarks with some recommendations on the challenges we face in 
the future and some issues that I hope you will keep in mind as 
you begin to think about the discussion in the next two years 
about reauthorization of TANF.
    Any discussion of overall results of the WAGES program 
inevitably begins with the extraordinary caseload decline we 
have experienced. We implemented the WAGES program effective 
October 1, 1996. In the month prior to implementation, 
September 1996, our overall caseload was 200, 292. This 
includes families containing an adult who are subject to the 
work requirement and time limits and so-called, ``child-only'' 
cases--primarily children living with grandparents or other 
relatives. This month, our overall caseload is 74,576, a 
reduction of 63%.
    There are eight states in the U.S. that collectively 
account for about 60% of the nation's welfare cases. Based on 
the latest data from the Administration for Children and 
Families, Florida's overall caseload reduction is the highest 
among these eight large states. Impressive as this decline is, 
the overall numbers mask an even greater decline in the WAGES 
program. If we define the WAGES caseload as those families who 
include one or more adults, that is to say the caseload that 
does not include the ``child-only'' cases, the overall caseload 
decline in Florida has been about 75%.
    This is because the WAGES families who are subject to our 
time limits and the work requirement have left welfare at a 
faster rate than the ``child-only'' cases that are not subject 
to time limits or work requirements.
    While I'm certain that we could have a lively discussion of 
whether caseload decline is the most appropriate measure for 
success in welfare reform, one simple fact is clear. Prior to 
the implementation of WAGES, Florida's monthly cost of welfare 
benefits was over $53 million. This month, welfare benefits 
will cost about $21 million. This means that over $30 million a 
month is available to the state to invest in services and 
supports that encourage work. We have fundamentally shifted the 
emphasis in the program from spending money to support welfare 
dependency to investing in child care, work activities and 
other support services that support work.
    Our success in reducing the caseload has also given us the 
ability to think about the needs of families in a broader 
context than the traditional welfare program. One of the key 
decisions you made in crafting the 1996 welfare reform 
provisions was to think about the needs of families beyond the 
important element of work.
    Let me be clear. Work is, and should be, the foundation of 
welfare reform. However, important as work is to family self-
sufficiency, there are other considerations that are also 
vital. I suspect this is why you defined four purposes of TANF 
rather than one. In addition to stressing the importance of 
ending dependency through job preparation and work, you also 
sought to increase the flexibility of states in operating a 
program to provide assistance to needy families so that 
children may be cared for in their own homes or the homes of 
relatives. You also challenged states to prevent and reduce 
out-of-wedlock pregnancies and you underscored the need to 
encourage the formation and maintenance of two-parent families.
    Florida has made exciting strides in defining new programs 
to strengthen and protect vulnerable children and families 
under these provisions--and we're planning to do more.
    The 1999 session of the Florida Legislature enacted 
provisions that defined new groups of eligible families to 
receive services designed to strengthened the families and 
reduce the likelihood of future welfare dependency. These 
included programs to provide services to victims of domestic 
violence, children and families in situations where there has 
been a finding of risk of abuse or neglect, families with 
newborns who are receiving in-home services from our Healthy 
Families Florida program, families at risk of welfare 
dependency due to substance abuse or mental illness, teen 
parents and teens needing pregnancy prevention services and 
families needing child care for teens with special needs such 
as children with medical needs so that the parents can continue 
to work.
    Historically, services funded by the AFDC program have been 
restricted to families with incomes below 28% of poverty. These 
new programs permit us to utilize TANF funds to serve families 
with incomes up to 200% of the federal poverty level.
    Some critics of welfare reform predicted that state 
flexibility would result in a ``race to the bottom.'' In 
Florida, rather than a ``race to the bottom'' we are running a 
marathon with strong and stable families as our prize. Rather 
than reducing our commitment to families, TANF has enabled us 
to strengthen and enhance those who are most vulnerable.
    As I mentioned earlier, I spent over ten years on the bench 
as a judge in dependency court. I can't tell you the number of 
family situations I've seen where the needs of the children and 
their parents cut across the alphabet soup of the Social 
Security Act. More and more we're finding that the TANF statute 
provides us the flexibility to design programs that bridge the 
historic gaps between Title IV-A, Title IV-E, Title IV-B and 
Title IV-D. TANF is the glue that binds these programs that are 
all under the jurisdiction of your subcommittee into a stronger 
foundation of services for children and families.
    You have seen that the pieces must fit together and you've 
given us powerful new tools to increase the effectiveness of 
our efforts.
    We've also used the flexibility you have given us to 
transfer TANF block grant funds to the Child Care and 
Development Fund. In addition to transferring the full amount 
of fund allowed by federal law, we are also budgeting over $130 
million in TANF funds directly to child care. Last week, 
Governor Bush submitted his recommended budget to the 
legislature for the state fiscal year that begins July 1, 2000 
and goes through June 30, 2001. This budget expands the 
commitment of TANF funds to child care and provides 13,000 
additional slots for working families.
    Governor Bush's budget will provide greater access to child 
care for working families in Florida that any budget in the 
history of our state. Madam Chairman, if together we 
accomplished nothing more than to make child care available to 
low income families, we would have cause for celebration. But, 
we intend to do much more. We plan to use TANF funds to enhance 
our ability to provide critically needed services in child 
welfare to stabilize families and protect children. We are also 
expanding use of TANF to provide prevention services and 
intervention services such as substance abuse and mental health 
services.
    Before concluding my comments, I would like to discuss some 
of the challenges we face as we continue implementation of 
welfare reform.
    One of the realities we face is that the more successful we 
are, the harder the job becomes. Although new families apply 
for assistance every month, the current caseload inevitably 
contains a higher proportion of participants with significant 
barriers to employment. This means that our cost per 
participant can be expected to increase over time and that 
costs related to investments in supports such as child care, 
post-employment services and activities focusing on retention 
will also receive increased attention.
    It would be very tempting to look at the tremendous 
decrease in the caseload and to assume that the block grant 
could be decreased proportionally. Thus far, the House of 
Representatives has recognized that this would be a flawed 
course of action and has maintained the block grant. I 
encourage you to continue to provide us with the resources 
needed to serve families remaining on welfare as well as those 
vulnerable low-income families who have entered the work force.
    I would encourage you to provide us with increased 
flexibility in two areas. The TANF legislation explicitly 
permitted states to contract with charitable, religious or 
private organizations. As a practical matter, however, our 
options in the area of contracting are limited because of the 
level of service integration we have achieved with the Food 
Stamp and Medicaid programs. When we determine eligibility for 
assistance under TANF, we simultaneously determine if the 
family would be eligible for both Food Stamps and Medicaid. 
Because of limitations in these other federal programs, we 
cannot fully implement our plans to contract for local 
services. I believe that representatives from the local 
workforce development board, which is the local WAGES 
Coalition, and representatives from the private sector will 
provide additional comments on this issue. I hope you will 
consider changes in federal law that will allow us the option 
of fully contracting for TANF services that are integrated with 
other federal programs just as you allow us to contract with 
local service providers for child care services and a host of 
other services.
    Our agency is beginning a comprehensive reorganization in 
which the development of local systems of care through 
contracts is a key component. We aim to be world-class contract 
managers and we believe our already successful welfare reform 
program should be part of that effort.
    The other area where I wanted to make a recommendation for 
future consideration deals with the degree of flexibility you 
have given to states. While the TANF block grant comes with 
numerous requirements ranging from use of funds to data 
reporting, I think any knowledgeable observer of federal/ state 
relations would agree that you have given the states 
significantly more latitude in how we design and fund programs 
than you did under the old AFDC program. I think the success we 
have demonstrated so far has been the result of this 
flexibility.
    As you consider future modifications to the current law and 
reauthorization of the statute, I hope you will retain this 
important feature of the program. Critics of welfare reform 
predicted all sorts of catastrophic impacts, but that has not 
been the experience in Florida or any other state of which I'm 
aware. We have used the flexibility you have given us to expand 
the ability of families to keep money they earn from 
employment. We have doubled our asset limit, increased the 
exemption on vehicles, removed the restrictions that punished 
two-parent families, expanded eligibility for child care. The 
list goes on and on.
    I hope you will resist the temptation to put new 
limitations or constraints on states about who we serve and 
reject new restrictions or requirements on state funds that are 
used in the program. The maintenance of effort requirement 
currently in law has been an effective mechanism to assure 
continued state financial commitment to the program. I hope you 
will permit us to continue to provide for effective services to 
families.
    I will close by referencing a recent federal finding that 
we found particularly pleasing. On December 4, 1999, Secretary 
Shalala announced the awarding of High Performance Bonus funds 
to states. The funds were awarded in two broad areas, job 
placement and job success, with the job success measure being 
based on employment retention and earnings. Awards were made on 
for FFY 1998 performance in each category as well as 
improvement from FFY 1997 to FFY 1998.
    While we would have gotten more money by scoring highest on 
job placement, I was very pleased to see that Florida's award 
was based on the job success measure. We were among the top ten 
states in the country for FFY 1998 on job quality and ranked 
number 1 in the country in improvement in job success from 1997 
to 1998.
    For us to have the largest caseload reduction among big 
states and to have the highest improvement in retention and 
earnings was a remarkable achievement. I think it shows that 
Florida's WAGES program is working--in every sense of the word. 
We look forward to continued success and to continuing to 
improve the program to meet the challenges of the future.
    I'll be glad to try to address any questions you may have.

                                <F-dash>


    Mr. Foley. Thank you, Judge.
    Our next presenter, Don Winstead, who is the Welfare Reform 
Administrator with the Florida Department of Children and 
Families.

   STATEMENT OF DON WINSTEAD, WELFARE REFORM ADMINISTRATOR, 
          FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES

    Mr. Winstead. Thank you very much, Congressman. And as I 
thank Congressman Foley and talk with you about passage of the 
national Welfare Reform Bill, I should acknowledge also I speak 
to former State Senator Foley, who was a key supporter in 1993 
in one of those welfare demonstration programs that the Chair 
spoke of, that really led us to where we are today.
    Mr. Foley. Thank you.
    Mr. Winstead. As Judge Kearney indicated, I am going to 
address in a little bit more detail, within the time 
limitation, some of the dynamics we are seeing within the 
welfare caseload and some of the other issues that you have 
raised. There are four key points that I want to make this 
afternoon.
    First, the caseload and the dynamics of welfare dependency 
are just much more complicated and much more dynamic than 
anything we have ever thought in the past.
    Second, many of the fears that we have heard about the 
catastrophic effects of placing time limits on cash assistance 
have at least so far not turned out to be accurate. Let me say 
in Florida, that although we are mindful of the Federal 5-year 
limit, that limit of course is 5 years or less at the 
discretion of the state, and in Florida, we start off, most 
people have a 2-year time limit and then some longer term 
recipients start off with a 3-year time limit, with certain 
exceptions and exemptions.
    Third, I want to talk with you briefly about how we are 
using money and some of the dramatic effects we have seen in 
how we have used funds under current programs as compared to 
the old AFDC program.
    And fourth, I want to talk about some of the transitional 
benefits, particularly the issue of Medicaid enrollment in 
children.
    Let me focus in--and in my written testimony, there are a 
lot more facts and figures--but I will focus in on what we call 
our WAGES caseload. You have heard the term WAGES this morning, 
that is our state program and it is an acronym that stands for 
Work and Gain Economic Self-Sufficiency. Within our overall 
cash assistance program, you can separate into the WAGES 
families, who are the families with adults that are subject to 
the time limits and the work requirements and the so-called 
child-only cases, grandparents raising grandchildren. And in 
those situations, the family is not under a time limit or work 
requirement.
    When we began the WAGES program in October 1996, after you 
passed the legislation, there were about 150,000 families in 
the WAGES program. That is, they contained adults subject to 
the time limit and work requirement. Today, there are fewer 
than 40,000 families. There is a tendency to think that if we 
went from 150,000 to 40,000, that is because 110,000 families 
left assistance. Not so.
    What actually has happened is there were about 150,000 
families and then an additional 375,000 families--I am sorry, 
an additional number came on for a total of about 375,000 and 
now we are down to about 40,000. And those families that came 
on contained unduplicated, about 400,000 adults or 
participants.
    So the math gets complicated, but the key point is that of 
the families who have received benefits under the WAGES program 
from October 1996 to December 1999, 90 percent of those 
families are off of welfare today. So actually, the number of 
people leaving welfare is much more dramatic than the numbers 
at first glance seem. What that means is that we have a very 
large number of families out there who have received some 
welfare, but who are struggling, who are in a very economically 
vulnerable situation. And I think why we are stressing so much 
the need to provide services and supports for families who 
either were diverted from welfare or have left welfare, is an 
important issue.
    This also has important implications for time limits. What 
we found in our experience--and again, our time limit 
experience goes back to 1993 and 1994 when we first started 
enrolling people in a time limit demonstration program--of the 
people who could reach the time limit, about one percent of 
those families actually have reached that time limit, 99 
percent of the families get off of assistance in advance of 
their time limit. And their period of time on cash assistance 
has been relatively short.
    In my written testimony on page 4, there is a graph that 
shows money and I hope the colors came out OK, but the point of 
the graph I think is one that is pretty dramatic. We used 1994 
as the base period because that was the base period that you 
used for the block grant. At that time, 80 percent of the 
Federal and state money we were spending on this program was 
being spent on welfare benefits. About $800 million out of $1 
billion total Federal and state program were going for welfare 
benefits. Today, welfare benefits are under $300 million and 
the total amount of Federal and state money has gone up. So 
that now, the big ticket items are child care, above the child 
care block grant levels; work activity supports and things that 
support a broader variety of working families. So we have 
really changed from spending money on welfare payments to 
investing money in things that support work.
    The final point I will make, on page 5 of my written 
testimony is a graph that I think tells the story on Medicaid. 
Yes, the Medicaid rolls in terms of eligible children did go 
down, they did not go down as dramatically as children on cash 
assistance. But one of the things when you see the national 
media stories, you realize that much of the national picture is 
based on caseloads where there is a delay in getting those 
caseload numbers, and a lot of what you are seeing is 1997 or 
1998 caseload numbers at the national level. Our experience in 
Florida was that the decline bottomed out in 1998 and since 
that time, with screening for Medicaid eligibility with our 
children's health program, Kidcare, and also with the 
additional emphasis on Medicaid enrollment, that the number of 
children receiving Medicaid in Florida has gone up. And I can 
report to you that today in Florida, there are more children 
eligible for Medicaid that there were when we implemented 
welfare reform in 1996.
    Thank you.
    [The prepared statement follows:]

Statement of Don Winstead, Welfare Reform Administrator, Florida 
Department of Children and Families

    Madam Chairman and Members of the subcommittee, I 
appreciate the opportunity to provide you with information 
about Florida's welfare reform activities and our 
implementation of the Temporary Assistance for Needy Families 
(TANF) Block Grant. My name is Don Winstead and I am the 
Welfare Reform Administrator with the Florida Department of 
Children and Families.
    As Judge Kearney indicated, I'm going to address in a 
little more detail some of the dimensions of the extraordinary 
change we have seen in the caseload dynamics in cash assistance 
and some of the conclusions we have drawn from this data.
    There are four key points I want to make in the time I have 
this morning. First, the caseload is much more dynamic than we 
have thought in the past. Second, many of the fears of the 
catastrophic effect of placing time limits on the receipt of 
cash assistance have, at least so far, not turned out to be 
accurate. Third, I would like to share a little more detail 
with you about how the use of federal and state funds have 
changed under TANF. Fourth, I want to share with you some 
information about transitional benefits and the effect of 
welfare reform on other programs, particularly Medicaid.
    When the Congress considered welfare reform and when the 
Legislature considered the design of Florida's WAGES program, 
we thought we had a pretty good knowledge base about the 
dynamics of welfare dependency. The published work of Bane and 
Ellwood, the later work of LaDonna Pavetti and the subgroup 
analysis from a variety of studies by the Manpower 
Demonstration Research Corporation (MDRC) provided a pretty 
good picture of what we might expect from welfare reform. As it 
turns out, the picture is much more complex.
    As Judge Kearney indicated, since October 1996 our overall 
caseload has dropped from about 200,000 families to about 
75,000 families. When we hear these numbers, there's a tendency 
to think in static terms. If the caseload drops from 200,000 to 
75,000 the implicit mental assumption is that 125,000 families 
have left the welfare rolls. When we examine the data in more 
detail, however, we find that what actually has happened is 
that while we started with about 200,000 families, almost 
300,000 additional families have come on the rolls for at least 
one month. This means that almost a half million families have 
received at least one month of benefits since we implemented 
our TANF program.
    This includes both the WAGES caseload--that is, the 
families containing one or more adults who are subject to the 
WAGES work requirement and the time limit--and the so-called, 
child-only caseload. Under both federal and state law, the 
child-only cases are not subject to either time limits or work 
requirements.
    When we take the child-only cases out of the mix, we find 
that we started in October 1996 with about 150,000 families in 
the WAGES program. Last month, there were fewer than 40,000. A 
reduction of 75%.
    When we do an unduplicated count, we find that about 
375,000 families with almost 400,000 participants have gotten 
benefits under WAGES and that fewer than 40,000 families remain 
on cash assistance today. This means that almost 90% of the 
families who have gotten one or more months of WAGES cash 
assistance are off the caseload.
    Taken together, the picture that emerges is one where most 
families are not long-term recipients. The median length of 
stay for these families has been about three months and over 
the 39 month period from October 1996 to December 1999, the 
median total months of cash assistance has been six months. In 
other words, if you were looking for the typical WAGES 
participant, you would find a single mother with two children 
who receives cash assistance for three months, gets off 
assistance and, at some point, returns for another three months 
and then gets off again.
    This is not necessarily typical of the families who remain 
in the WAGES program today. The families remaining today would 
be more likely to be longer-term recipients. Where the median 
family who has ever received cash assistance under WAGES has 
received six months of benefits over the October 1996 to 
December 1999, the median family on the WAGES caseload in 
December 1999 has received 19 months of cash assistance.
    These patterns of receipt of cash assistance have important 
implications for the issue of time limitations on benefits. Our 
time limit, under state law, is shorter than the federal 60-
month limit. Most families have a 24-month limit in any 60-
month period. Some families start off with a 36-month limit out 
of any 72-month period. There are various provisions for 
extensions of the 24-month or 36 month time limit. Overall, 
there is a 48-month lifetime limit.
    When people talked about time limits prior to the passage 
of welfare reform, the imagery was of the ``time limit cliff.'' 
It was as if we could have expected the 150,000 families who 
came under time limits in October 1996 to remain continually on 
cash assistance and, when they reached their time limit in 24 
months or 36 months under state law, to uniformly drop off the 
caseload.
    Florida has as much, if not more experience with time 
limits as any other state. Under a welfare reform waiver, we 
implemented the Family Transition Program in early 1994. This 
was among the first demonstration programs in the country to 
set a time limit on AFDC recipients. We have well over five 
years experience with time limits and our experience has been 
consistent both in the demonstration and in our three years 
experience with the statewide WAGES program. There is no time-
limit cliff--no big point-in-time drop. Rather, over time, most 
families leave the caseload well in advance of the time limit. 
The number of families who exhaust their benefits represent a 
tiny portion of the families who get benefits.
    Even with these shorter time limits, we've found that only 
a small portion of families reach the limit. So far, closures 
due to time limit have only represented about 1% of the 
families who could have reached their time limit. Since we have 
implemented the WAGES program, the Florida Legislature has made 
several adjustments to the state time limit requirements. Most 
significant was to exempt families with a severely disabled 
family member, where the participant is needed to provide 
personal care, from the time limit entirely. Another 
significant provision was to allow participants to ``earn'' up 
to 12 additional months on their time limit through working. 
Each month of employment brings an additional month on the time 
limit.
    While I would stress that it will probably take several 
more years for us to be able to fully evaluate the time limit 
experience, our experience to date is that the catastrophic 
outcomes predicted have not happened. The presence of time 
limits has definitely brought a sense of urgency to the entire 
program that did not exist prior to time limits.
    The final area I would like to discuss is money. Judge 
Kearney spoke of how we have shifted from spending money on 
welfare dependency to investing in things that support work. I 
have included a chart that makes the point.
[GRAPHIC] [TIFF OMITTED] T9754.008

    The bars on the chart compare our total federal and state 
expenditures in 1994, the year that was used as the baseline 
for determining our TANF block grant to the budget in the 
current state fiscal year. To provide an ``apples to apples'' 
comparison, I have not shown the IV-A child care under the old 
AFDC program that is now part of the Child Care Block Grant. 
The only child care shown represents real increases in child 
care expenditures. As you can see, in 1994 we spent the 
significant majority of funds on welfare payments.
    In this year's budget, the funding picture is quite 
different. Now, work activities, support services, child care 
and services for vulnerable families take up the bulk of 
funding. As Judge Kearney said, we have shifted from spending 
money on welfare dependency to investing in the things that 
support work.
    Before concluding, I would like to share with you some 
information about Medicaid participation. There have been a 
number of reports both in the state and nationally that have 
documented a decline in Medicaid enrollment that has 
corresponded to the decline in the welfare caseload. Since 
national caseload data is subject to a considerable lag in 
time, much of the national data is based on 1997 or, at the 
latest, 1998 data.
    This is a complex issue and renewed efforts at the 
national, state and local level to make sure all eligible 
children are enrolled should be a high priority. Governor 
Bush's proposals to the Florida Legislature in the coming 
session will include provisions to expand enrollment in 
Kidcare, our children's health insurance program that includes 
Medicaid the new Title XXI program. One item to note, however, 
is that Medicaid enrollment of children is not decreasing in 
Florida. The decrease halted in 1998 and more recent trends 
indicate that the number of children on Medicaid has increased 
while the number of children on cash assistance has continued 
to drop.
    In December 1999, there were more children in Florida 
eligible for Medicaid than there were in 1996, when we 
implemented WAGES. The following chart shows the number of 
children eligible for cash assistance compared to the children 
eligible for Medicaid.
[GRAPHIC] [TIFF OMITTED] T9754.009

    Overall, we have seen a tremendous decline in our cash 
assistance caseload. The families remaining on welfare are more 
likely to be working and have significantly higher earnings 
than was the case in the AFDC program. Only a very small 
percentage of families have reached the time limits under state 
law and most families are leaving the rolls well in advance of 
their time limit. We have invested the savings from caseload 
reduction in activities that support work and in strengthening 
our support to some of the most vulnerable families in Florida. 
While the caseload continues to decline, we have seen an 
increase in the enrollment of children in Medicaid. I believe 
that continued emphasis on transitional benefits and supports 
for working families will be priority areas for the future.
    I would be glad to try to address any questions you might 
have.

                                <F-dash>


    Mr. Foley. Thank you, Don. And as always the case, your 
full testimony will be made a part of the permanent record, 
since this is an official proceeding.
    I will first call on the Chair, Ms. Johnson, for questions.
    Chairman Johnson. Thank you very much for your testimony, 
it is very helpful.
    I am interested in your constant stress on flexibility. The 
administration has recently issued some new regulations that 
propose new categories of awards to be added to measure state 
performance. Is this going to reduce your flexibility, or do 
you have any concerns about these categories? They are the 
extent to which states encourage the formation of two-parent 
families; improvement in enrollments in Medicaid and the 
children's health program, which apparently you are doing very 
well on; and the Food Stamp Program. Does this bother you?
    Ms. Kearney. I will defer to Mr. Winstead but then have 
comments on it as far as ``bother you'' and some of the same 
issues that have seen. We are seeing some challenges. But I 
will go ahead and let him respond.
    Mr. Winstead. I think we would certainly agree with the 
goals that are reflected in those measures. We want to see the 
increases in those areas and the other programs, and we think 
those are appropriate things to focus on.
    I have a little bit of a concern, and it is more of a 
technical concern than a substantive policy concern. You know, 
the high performance bonuses that were just released were the 
first time that we have really had in some of these measures 
comparable national data or some way to see how are we doing 
relative to other states. Now we were very pleased with how we 
came out in some of that, but I think if you are really going 
to affect performance, you have to measure things consistently 
over time. And to bring in new measures and to change focus, 
there is some concern there, are we really going to get the 
consistency over time that we need to affect some of these 
programs and is the TANF high performance bonus the place to do 
it, or are there things in the other programs like give us more 
flexibility in the Food Stamp Program might be one idea. So I 
think that is really more of a technical concern. I do think we 
certainly agree with the goals that are behind those measures 
and those are high priority goals in Florida.
    Chairman Johnson. Well, you certainly are a high 
performance state. I congratulate you on not only your 
aggressive implementation of the new law, but the degree with 
which you have been able to integrate it with state policy so 
that you can complement opportunities you have under welfare 
reform.
    And I was very pleased that the administration took the 
initiative to do this, because we are trying to find ways to 
help states focus on things that we think are important without 
being prescriptive. But as you know, prescriptiveness is small 
steps down a slippery slope. So I am glad to hear your comments 
about that and also--as you gain experience--you know, any 
comments you would have on how we should change the Federal law 
to give you more flexibility and how we might need to 
complement that to assure accountability.
    Judge Kearney.
    Ms. Kearney. Madam Chair, basically one of the concerns 
that we have regarding flexibility and where again your 
leadership would be key, as you saw today here in the one stop 
center, the fact that it is one stop and that they are trying 
very much to have it client or customer focused rather than 
program focused, so that there is a true integration of 
services so even though there are many agencies and entities 
here that are providing this service, it is seamless to the 
customer that is coming in.
    One of the things that we are seeing here is that as we are 
implementing, there are concerns, there are different 
requirements, as you heard this morning, from Ken Montgomery. 
There are different requirements for food stamps versus the 
TANF funds, cash assistance funds. And so we really would 
request that that flexibility be to tear down those barriers so 
that we can truly develop a one stop program. We in Florida are 
trying to integrate our entire human services delivery system 
to develop a true system of care delivery that takes down those 
artificial barriers. And so we would ask for flexibility in 
order to do that.
    Chairman Johnson. Let me mention two things briefly. I have 
asked Ken Montgomery of the Workforce Development Board to 
provide us with the study that they did of eligibility criteria 
and the problems that it created for them. And then what their 
solution was. I invite you to do the same on the state level 
because we are finding that the diversion of dollars into these 
kinds of administrative gains is very destructive and naturally 
we are concerned with cutting people out of access to a 
benefit, and so I would be interested in any recommendations 
you have of parameters. We might want to give states some 
flexibility and just set some parameters. So we are very 
interested in that and would appreciate your comments on that.
    Lastly, also let me say that I am very interested in state 
flexibility--and my state is one of the states that has a 
waiver to create the same kind of flexibility for foster care 
services. Right now, Federal policy rewards taking a child out 
of their home and disadvantages a state that tries to keep a 
child in their home--this is a different subject than this 
hearing is held on, but since you have had such a remarkable 
level of experience, if you would think about this and talk 
with my staff director, Ron Haskins, and get back to us with 
your thoughts. I am very committed ultimately to greater 
flexibility and am working also with people in the 
administration on this. We have had some comments. There are 
some big problems here, but your thoughts over the course of 
the next few months would be very helpful to us.
    Thank you, Mr. Chairman.
    Mr. Foley. Thank you. Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman.
    Once again, I am impressed by your testimony. I was 
impressed when you were in Washington and we thank you very 
much for adding to today's hearing.
    I agree with Ms. Johnson on flexibility. That decision has 
been made in Washington, we want to grant maximum flexibility 
to the states in managing our welfare reform programs, but you 
raise a good issue about how do we judge accountability and any 
help you could be in that regard would certainly be 
appreciated, as to how we can, without interfering with the 
flexibility that you need, establish national goals or national 
standards to judge the states' performance under welfare 
reform.
    I have I guess one question I would like your observation 
on. Don, you mentioned that there were 400,000 people I think 
that went onto the cash assistance over the last three, three 
and a half years, of which 350,000 it looks like have come off 
and there are 50,000 on today.
    Mr. Winstead. Right.
    Mr. Cardin. Do you know where these people are? Are most of 
them working? Do we know what percentage are working, do we 
know whether they continue to be employed? What happens to 
those who are not employed? Do we have any sense of what the--I 
guess the demographics of this looks like?
    Mr. Winstead. Yes, sir, we do. And I think the way you 
characterized it is exactly what we have as a sense of that. 
Like many other state, Florida has conducted a survey of 
families who have left cash assistance. We did this through a 
consortium of state universities that have been working with us 
on research issues, and Florida State University in Tallahassee 
took the lead on this survey, did a survey, randomly selected, 
of families who had left assistance. What they found--and I 
should also repeat that or say that they are going to repeat 
that and have further studies in the works, part of which will 
be funded by the research grants that you put in the TANF law 
that gave states incentives for that. So thank you for that.
    In the Lever survey, they found that about 60 percent of 
the families who had left assistance reported that they did so 
because of employment and that about an additional 15 percent 
when surveyed were subsequently working, so the total was about 
75 percent.
    Mr. Cardin. But is there any information as to how long 
they stayed employed? Was this somewhat permanent, or we just 
do not have information on that?
    Mr. Winstead. We have, again, some information on that. One 
thing that we have just gotten with the high performance bonus, 
Florida was just awarded $6.8 million in high performance 
bonus, and you recall that there were two categories of 
measures there. One was employment entries which we thought we 
would do very good on, which we were not awarded money on that. 
The other was job success measures which had to do with 
earnings, gains in job retention, and Florida was in the top 
ten in the absolute measure there, and number one in the nation 
in improvement in earnings gains and retention.
    Mr. Cardin. How do you deal with that--that is wonderful, 
but how do you deal with retention and keeping people employed? 
What is your strategy?
    Mr. Winstead. I think our most important strategy is the 
same strategy you followed in welfare reform, which is where 
you devolved it to the states. We know that our local 
communities are in the best posture to do that and as you heard 
downstairs, of course, the local wages coalition which in this 
area is the Work force Development Board, so those systems are 
integrated, develops their local plans, develops their local 
activities. And you heard downstairs about follow-up, an 800 
number 24 hours a day, 7 days a week of people being able to 
receive support services for 2 years after they leave 
assistance, case managers being in contact. I think all of 
those are important elements to really getting at that, which I 
think is really the new challenge of welfare reform.
    In today's economy, thankfully, you know, finding a job 
today is not the tough part. It is keeping the job and building 
stability and working up the ladder, is the real challenge.
    Mr. Cardin. How about the remaining 25 percent, those 25 
percent that did not leave or become employed after they left?
    Mr. Winstead. There a variety of things. Some people had 
changes in their family situation, they were living with 
someone who was employed, they had children that got other 
benefits such as SSI or other things. We found when we got down 
to the number that did not comply and left and were sanctioned, 
it was actually about eight percent, but in most cases there 
were other changes in family circumstances and in some cases, 
the answer also is we do not know. Some people have said that 
is not your business. So there is a certain unknown element 
there.
    Mr. Cardin. Judge.
    Ms. Kearney. I think it is critical, as you saw our 
emphasis on the support services, in making sure that child 
care was available, making sure that transportation services 
were available, because that would help people to be--feel 
comfortable to continue to work, whereas if you do not have 
those support services in place, you may have someone just 
working for a short period of time that would then say I am so 
concerned about my child, I would rather stay home and be there 
to make sure my child is safe. So I think a key to our success 
is our ability to use the funds for that purpose. That is why I 
would strongly encourage, again, your leadership to not have 
those funds--while we decreased the welfare rolls, those funds 
we have used in creative ways in order to maximize the service 
to those that are there to help with the more difficult to 
serve population.
    Mr. Cardin. Thank you. Thank you, Mr. Chairman.
    Mr. Foley. Thank you, Mr. Cardin. Mr. Shaw.
    Mr. Shaw. Thank you, Mr. Chairman, I will be brief, I will 
not take my full 5 minutes.
    I would like to go back and, Don, refer back to the chart 
that you supplied to us, just make reference to it, because it 
shows, I think, the most encouraging thing about how we change 
the entire system. We are taking these dollars and we are 
putting it into things that attack the causes of poverty and 
put the cure in.
    Of course, we are concerned that people do not suffer while 
in poverty, but the old way was just simply to make people 
comfortable in a life of poverty. That is what we have changed 
about the whole culture and I want to speak just briefly on the 
flexibility issues, because this was very important. The 
Ranking Member, Mr. Cardin, was Speaker of the House of 
Delegates in Maryland; Nancy Johnson, the Chairman, comes out 
of state government. I see Sharon Merchant in the back of the 
room, who is also very much concerned about this area, and 
particularly the funding level. And this is something that we 
have to fight for every year. And that is that we do not turn 
our success into a problem of funding because the people that 
you get down to, once you get past that 50 percent, you are 
getting into a population that is very, very difficult to 
place. And we need to spend more money in those areas in order 
to be sure that those people also have a second chance at life. 
I think that is tremendously important, and I know all of us up 
here have constantly worked to maintain that funding.
    When you look at the chart that was up on the board here 
behind me during Mr. Foley's opening statement, you saw that we 
were spending a lot more on each person that is in the system, 
and that is important. It is as much--just from the standpoint 
of getting rid of the problem and funding somebody, it is much 
cheaper just to make them comfortable where they are than 
investing in them, and this is what welfare reform does, it 
invests in people and invests in the people that are from an 
economic and education standpoint, are disadvantaged, but that 
does not mean that you should walk away from them, that does 
not mean that you should not have faith in their ability to 
make it. And that is exactly what welfare reform has done.
    And the flexibility factor is so important. We even put 
flexibility in the law in that states can actually apply the 
law in different parts of the states. Right here in Palm Beach 
County, we have a huge problem over around the lake, people 
always equate Palm Beach County as the eastern side. There is a 
western side of Palm Beach County, which needs, desperately 
needs help. And from the standpoint--I mean it is just major 
poverty over in that area that has to be addressed. So somebody 
should get a job on the east side much quicker than on the west 
side, and that flexibility is in the law and hopefully Florida 
is using it to the utmost.
    I want to congratulate both of you. I know, Kathleen, I 
worked with you early on in foster care, I was very impressed 
with the way you took the foster care program in Broward County 
to task. Your soft appearance and soft voice disappeared in 
dealing with that problem and you certainly have done a 
tremendous service for the kids. And that is terribly important 
and I congratulate you for it. And I cannot think of anybody in 
the state of Florida who is better off in a position as you 
are--or the state is better off having you in that position. It 
is wonderful to see that selections are made that way. Of 
course, being a judge, you were not involved in the politics 
anyway, so he did it strictly on merit, and I congratulate you 
and I congratulate the Governor for appointing you.
    And I yield back my time.
    Ms. Kearney. Thank you.
    Mr. Foley. Thank you. And let me thank my colleague, 
Congressman Shaw, on behalf of myself and Alcee Hastings who 
represents the glades area. I always like to remember our 
families there as well and they are an important part of this 
county and I acknowledge and appreciate that.
    One of the things I have learned in my last couple of years 
and most recently spent some time at Palm Tran and Tri Rail and 
some of our transportation infrastructure. Sometimes I feel 
like you cannot get there from here no matter how desperately 
you try. Tri Rail is a good system, but it is about seven or 
eight dollars, so the likelihood of taking that as a means of 
getting to a job becomes diminished based on that. The bus 
network of course is getting better, but it is still 
inconsistent as far as time. Will I get to my job on time.
    What have you discovered in Florida, at least from a state 
level and maybe some counties in particular, where the 
transportation or new transportation models have been used to 
get people to the workplace?
    Mr. Winstead. There are several things with transportation, 
and I think transportation is one of the real challenges 
because unlike child care where we have an existing 
infrastructure really to provide that support, in some cases 
the infrastructure is there in transportation and in some cases 
not. But I think there are a variety of things that have been 
done around the state. Our local WAGES coalitions and the 
legislature has also created some new tools. Several 
transportation pilot projects are in the budget, they have also 
given the ability to provide automobiles. Now some of that has 
gotten a little bogged down in liability issues being worked 
out. But local coalitions have broad flexibility in using the 
funding that they have on transportation. In some cases though, 
it is a real strategic kind of challenge because it is a matter 
of not only having resources, but building the infrastructure 
and the mechanisms. But I think everything--when we go around 
the state, everything from using zip code mapping to plot out 
where people work, where bus routes run, where jobs are, where 
child care centers are, doing a lot of that analysis and then 
seeing--in some cases, they have gotten transit systems to 
change bus lines, to add bus lines later in the evening on 
weekends, change the holiday schedules. Van pooling, working 
with employers to underwrite the cost of vans in some locations 
has been successful as well as looking at a variety of things 
around private vehicles.
    So there is an awful lot going on in transportation and an 
awful lot more to be done.
    Mr. Foley. Judge, do you have any----
    Ms. Kearney. This has been an issue that, again, as Don 
indicated, our main concern at this point is building capacity 
in infrastructure in many of our communities and this is an 
issue that we are aware of and we are certainly not only 
looking at it in terms of what currently is available but doing 
the research project and the WAGES Board, on which I serve as a 
member, is very concerned about this issue and has set aside 
specific funds to look at this issue to help local communities 
in building that capacity.
    Mr. Foley. I would sure like to look for a way, because I 
know in some cities you have cards that are given to people 
which may have disabilities or they may be senior citizens, for 
you to have reduced fare or no fare, to get them started. 
Because again, if you cannot get there, the job does not 
matter.
    Ms. Johnson.
    Chairman Johnson. I just wanted to inquire whether or not 
you had looked into using some of the senior buses that we 
provide to communities, and some of the other transportation 
equipment that is federally funded to communities, particularly 
for after hours transportation, which is the hardest to get and 
the very time when those buses are idle, weekends and nights.
    So if you develop any of those projects, we need to know 
about it. We need to do a better job of marketing solutions 
throughout the states where creative things are done. So far, I 
have not seen any community that has actually developed this 
program, although one state is doing an interesting job with 
leasing cars. In Connecticut, we have done this because there 
is a big employment center in one of the Indian casinos, and so 
we are a small state and almost anyone can get there. And that 
has had some very interesting possibilities for us.
    But the re-use of facilities that are already federally 
funded is something that we need to do a better job of.
    Ms. Kearney. We have a number of different programs that 
the local WAGES coalitions have done and we would be glad to 
submit that information to you for your consideration.
    Chairman Johnson. That would be helpful, thank you.
    Mr. Foley. Here is the question I am supposed to ask, but I 
really want to ask my own. It basically goes to the 5-year time 
limit and it has created a sense of urgency and it is a 
positive light that we have that time limit. I guess what I am 
concerned about, we are not there at 5 years yet, what are you 
sensing from what has happened today, because economics we 
cannot figure out what will it be like in 20 years, and if 
somebody has used up three to 4 years of their current 
benefits, what happens to those people if the economy turns 
down and all of this great experience is negated?
    Mr. Winstead. We, of course, have some 5-year experience 
but of course we have a two and a 3-year time limit, so we have 
many, many people in Florida, who theoretically could have 
reached their time limit and a very small number of people who 
actually have. Of course, in our Family Transition Program, the 
program that began as a demonstration program under waiver, we 
began enrolling people in time-limited benefit tracks in early 
1994, so we are actually 5 years plus in there. Again, we found 
that very, very few families actually reached the time limit, 
that most people get off the time limit well in advance. But we 
have found that having time limits--you used the term ``sense 
of urgency'' and I think that really describes it not only for 
participants in the program, but for case managers, counselors, 
the people working in the program, administrators, everyone I 
think feels that sense of urgency and I think that has been 
really important to keep focused because this is not a 
situation where we can all sit back and hope it goes well. 
There need to be actions taken every day to help people move 
through the program. And to have people, as sometimes happened 
under the old AFDC Program, to go into activities where they 
just sat and really did not do anything and did not progress, 
that is not an option any more. And I think the time limit has 
really underscored that.
    The other thing that is part of that and one of the things 
we have done in Florida is since our time limits are shorter, 
we actually have more flexibility with exceptions to them and 
can put in some additional rules. And one of the rules the 
Florida legislature put in was that if you work, you can an 
additional month on your time limit, up to 12 additional 
months, as an additional incentive to work. Pair that with the 
fact that we changed the earnings disregard--if you are 
familiar with the kind of nuclear physics of the old AFDC 
Program, bottom line, people who go to work can get off of 
welfare slower actually, can keep more money. As a consequence 
of that, back in 1996 when we started the program with 150,000 
adults collectively had gross earnings of $3.2 million. In 
December of this year, 40,000 adults remaining on assistance--
and these are the ones still on welfare--had collectively $5.3 
million in earnings. So we have many more people who are 
earning their way off of welfare, which gives them more money 
as they begin their employment to kind of overcome that very 
difficult transitional period.
    Mr. Foley. And I think that is probably one of the bright 
spots of welfare reform, is that you are actually encouraging 
work while you are not denying benefits entirely.
    Mr. Winstead. Right.
    Mr. Foley. Let me thank you both for traveling to our area 
and I appreciate your leadership. I am proud that Florida is 
recognized among the 50 states as the top to integrate and 
implement the welfare reform system and also come up with novel 
approaches to make a successful formula and successful 
transition. So I appreciate you both being here.
    Mr. Winstead. Thank you very much.
    Mr. Foley. Let me ask the next group to come up. we will 
have Dr. Harold Calvin Ray, Marvin Tanck, William Pruitt, 
Gerald Miller, Corletta Clay and Lucy Bisignano. I know we have 
a video, I think it is probably ready.
    Okay, our first presenter is Dr. Harold Calvin Ray, chief 
executive officer and President, Redemptive Life, West Palm 
Beach, Florida. Welcome, Doctor.

   STATEMENT OF BISHOP HAROLD CALVIN RAY, SENIOR PASTOR AND 
FOUNDER, REDEMPTIVE LIFE FELLOWSHIP, WEST PALM BEACH, FLORIDA; 
 AND FOUNDER AND CHIEF EXECUTIVE OFFICER, NATIONAL CENTER FOR 
                     FAITH BASED INITIATIVE

    Mr. Ray. Thank you very much and good afternoon to Chair 
Madam Johnson, to Ranking Member Cardin and to our own 
Congressman, Mr. Foley.
    Since our inception as a ministry in 1991, we have focused 
upon our articulated mission of educating and empowering 
individuals to improve their quality of life, primarily through 
self responsibility paradigms. We believe that spiritual 
revelation must be matched by practical implementation, and 
accordingly we birthed during that time over 300 practical 
outreaches and local initiatives that have been primarily 
targeted at enhancing the capacity of our community residents 
to improve their own qualities of life, both corporately and 
individually.
    That includes, of course, as a human resource concern, 
those that not only have been subjected to the degrading issues 
of dependence upon welfare, but more often in our own 
communities those issues of drugs and alcoholism that, as you 
know, are equally as debilitating, and changing these paradigms 
into individuals that are living now self-sustaining and 
enterprising as men and women of destiny.
    Locally, I think that it is very important that we never 
discount--and I am sure you do not--the importance of faith-
based initiatives in grassroots community-based organizations 
that are doing a tremendous job. And of course, their task has 
been expedited somewhat by the mandate of welfare reform and in 
my opinion, a welcome mandate.
    Particularly in our own structure, we have formed a tri-
corporate infrastructure that is both a 501(c)(3) organization, 
the primary church, as well as a 501(c)(3) community 
development corporation, and then supplemented that with a for-
profit corporate existence that has birthed some 14 
entrepreneurial endeavors that in turn has trained or served as 
apprentice situses for over 400 individuals, many of whom are 
young persons that are now second generation at least welfare 
dependency or on the track for that, without this intervention.
    We have done this and we have provided the Committee with 
some of the exhibits and tools that we have used, from our 
travel training school to our own store in the Palm Beach Mall, 
which is now franchised in 11 different situses throughout the 
nation that in an of themselves have trained hundreds of 
individuals, to our merchandising and communication venues such 
as in radio and telecommunications industries, which have been 
particularly appealing to young people.
    Our training and development and skills enhancement has 
included everything from the computer-based modules to 
enhancing their ability to participate upon the super-
information highway which, as we all know, is literally a 
prerequisite almost to maintaining the status quo and then 
progressing in our society.
    If I could, I would like to, simply in the short time that 
I have and those few points that I have outlined, say to you 
that if I were to--and looking at it from a grassroots 
perspective--say where do we go from here as we are looking at 
the next phase of this and the next great frontier, I have 
outlined it as follows:
    I believe that as a human resource issue, we have to move 
beyond merely a work force development and welfare to work 
initiative to considering a lifestyle development as a mandated 
paradigm. In short, I believe that in our communities--and it 
has already been alluded to in several instances today--that we 
have to look at the creation, the accumulation, the allocation 
and the preservation of wealth or proper financial management 
as something that the time has come, we must give paramount 
attention to.
    We have persons getting into the work force, but we have 
many of them that are still left at the bottom rung of that 
ladder. And it will take a strong intervention of teaching of 
self-actualization, of savings, of investment and transference. 
Part of this is going to have to be done, quite frankly, by 
some sort of monitoring and assessment of reinvestment policies 
and practices, not only by the corporate world--I have heard 
several of you comment on what is the accountability factor for 
the state initiative as well. I think that is going to be very 
important because one of the key ingredients is not only how we 
match the resource pool to the available jobs, which in Palm 
Beach County is an ill match at the present time, which is why 
the transportation issue is very paramount; but moreover, how 
do we spur entrepreneurial abilities, how do we spur localized 
economies with that reinvestment and where that entrepreneurial 
spirit can take place right within the confines of our own 
community, which will enhance self-esteem, create a greater 
product environment and change our persons that are literally 
trapped many times in these indices from a consumer mindset to 
a producer mindset.
    The last point would be that I believe that there needs to 
be now strong intervention, as I said earlier, to the access to 
the super-information highway, because every day that is now 
creating socio-economic gap widening because of the 
introduction of a global economy and the nexus of any type of 
meaningful lifestyle existence in our local communities, to 
being able to at least understand, if not relate to, or 
understand how they are impacted by the global economy, which 
is now literally impeding upon all of our lifestyles one way or 
another.
    Here in this county, and as I am sure duplicated throughout 
the nation, there are hundreds of tremendous faith-based 
initiatives which we are working every day to bring to a 
stronger collaborative effort, to the degree that can be 
supported, to the degree that can be encouraged, we do 
certainly encourage that. We believe that the collaboration of 
faith-based initiatives taken together with affirmative 
partnership with our state will make a meaningful difference in 
our society.
    Mr. Foley. Thank you.
    We are first going to play a tape that really moved me 
about a year and a half ago, I believe Channel 5 in one of 
their early morning segments, I was up at 6 watching TV, and 
Channel 5 I think has Postcards from Paradise, and this 
particular segment dealt with Bishop Ray's church and what it 
did to me was really blow away every stereotype everyone has 
about welfare. Traditionally, people automatically think about 
welfare mothers, they think about minorities, they think about 
deadbeat dads, they have negative connotations about everyone. 
And what I saw in this tape really brought to light that 
everybody is working cooperatively for everyone in this 
particular tape. If you would run it. I hope most of you can 
see it.
    [Videotape played.]
    Mr. Foley. That is powerful, very powerful. And that kind 
of work is going on in our community. That was a single father 
raising his child, accepting responsibility, a predominantly 
African-American church welcoming in a young fellow and his 
family with tuition-free education, to get them a start in 
their life.
    After that piece aired, I believe there was individuals who 
donated a car for that man.
    Mr. Ray. That is right.
    Mr. Foley. And I just want to commend you, it is a 
beautiful story.
    [Applause.]
    Mr. Foley. Our next presenter, Marvin Tanck--and I am quite 
familiar with Marvin, I was Chairman of Gulfstream Goodwill 
Industries, and when I first joined the Board, we would spend 
about 50 minutes of our lunch hour board meetings talking about 
running thrift stores and about five minutes mayvbe, if time 
allowed, talking about the clients we were supposed to be there 
to serve, 55 minutes to the profit motivation.
    We brought Marvin down from Maine, he had a background in 
disability vocational training. He turned us around. We started 
with 50 minutes of client needs and a five minute report on the 
finances in which we could help develop clients.
    During my term, I think we had 57 when I first joined the 
Board, I think Marvin told me, 1500 clients now?
    Mr. Tanck. Four thousand.
    Mr. Foley. Four thousand clients. So I welcome Marvin as 
the new President/CEO of Goodwill Industries.

  STATEMENT OF MARVIN A. TANCK, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, GULFSTREAM GOODWILL INDUSTRIES, INC., WEST PALM BEACH, 
                            FLORIDA

    Mr. Tanck. Thank you, Mark. Chairwoman Johnson, Congressman 
Cardin and Congress Foley and former Board Chair, my name is 
Marv Tank and I am the President of Gulfstream Goodwill 
Industries located here in West Palm Beach, Florida. Our 
mission of our community-based, not-for-profit organization is 
to assist persons with disabilities and other economic 
disadvantages to become an integral part of the local work 
force and lead independent lives. Gulfstream Goodwill 
Industries is a subcontractor to Lockheed Martin IMS, the 
direct service provider to welfare-to-work services here in 
Palm Beach County. We provide vocational assessment services, 
as you saw downstairs earlier this afternoon, to all the 
program participants of Palm Beach County Work force 
Development Board, at each of their one-stop locations. I also 
hold a seat on the Palm Beach County Work force Development 
Board representing organizations that serve persons with 
disabilities.
    I was asked by Congressman Foley's office to speak to the 
reasons by I thought our Work force Development Board was 
successful and also to address unmet needs as we saw it in our 
county.
    From my vantage point, I can honestly attest to the success 
of welfare reform, as you saw today, and I am sure you will 
agree with me. I believe the success can be attributed to the 
following key factors:
    First, a Workforce Development Board that is diverse, 
committed, visionary. A board that gives unselfishly of their 
time, who puts the needs of the consumer first and not only 
wants, but always expects to do more.
    We are successful because Palm Beach County's Work force 
Development Board staff hold those same virtues and set those 
same high standards for themselves as the Board.
    I strongly feel performance-based contracting is a major 
influence in our county's success, a process that clearly 
identifies the outcome that is expected in order for the 
contractor and subcontractor to receive payment for their 
services.
    Finally, success is due to the hard efforts by the direct 
service provider, its partners and/or subcontractors and a host 
of community organizations and volunteers who provide 
education, training, remediation, assessment, job placement, 
and competent input regarding service needs specific to our 
community.
    There are many others who I have not mentioned who played a 
role in welfare reform in Palm Beach County and its success. 
There had to be, how else could the welfare rolls in our county 
numbering approximately 5600 individuals in late 1996 be 
reduced to approximately 1300 here in our county today. Our 
educational and business communities have certainly influenced 
Palm Beach County's success.
    For welfare reform to continue to work and be successful, I 
strongly suggest to you that the majority of the individuals 
remaining on the welfare rolls today have service needs quite 
different than those who have already achieved their successful 
outcomes. Many individuals who remain on today's welfare rolls 
face multiple barriers to employment. In order to assure 
continued success, legislation needs to address and provide for 
the following: And the data that I used to come up with these 
areas is taken from our assessments, as you saw downstairs in 
the assessment center looking at individual service needs.
    1. Additional time and resources to remediate the multiple 
barriers to employment. To address such issues as, but not 
limited to, lack of or absolutely no work experience, remedial 
education, mental health and substance abuse issues, financial 
planning, credit counseling, supportive housing and other legal 
type issues.
    2. The addition and/or expansion of comprehensive case 
management services to assure the coordination and 
followthrough in such critical areas of medical services, child 
support, child care, housing, parenting skills and personal 
adjustment.
    3. Career enhancement and related supports that facilitate 
and support ongoing training for the thousands of individuals 
who have secured employment and moved from the welfare rolls to 
now the working poor rolls. The future welfare reform program 
needs to elevate skills and earnings in order for individuals 
and families to achieve full and long lasting vocational and 
economic independence for all graduates.
    And finally, a public transportation system that can 
support those riders who work non-traditional hours, weekends 
and nights.
    Thank you.
    Mr. Foley. Thank you very much, Marvin.
    Our next speaker--you timed that perfectly.
    [Laughter.]
    [The prepared statement follows:]

Statement of Marvin A. Tanck, President & Chief Executive Officer, 
Gulfstream Goodwill Industries, Inc., West Palm Beach, Florida

    Chairwoman Johnson, Committee Members, My name is Marvin 
Tanck and I am the President of Gulfstream Goodwill Industries, 
Inc. located in West Palm Beach, Florida. The mission of our 
community-based, not-for-profit organization is, ``to assist 
persons with disabilities and economic disadvantages to become 
an integral part of the local workforce and to lead independent 
lives.'' Gulfstream Goodwill Industries, Inc. is a sub-
contractor to Lockheed Martin IMS, the direct service provider 
of welfare-to-work services here in Palm Beach County. We 
provide vocational assessment services to program participants 
of the Palm Beach County Workforce Development Board at each 
one-stop location. I also hold a seat on the Palm Beach County 
Workforce Development Board.
    From my vantage point I can honestly attest to the success 
of welfare reform here within our county. I believe the success 
can be attributed to the following key factors:
    <bullet> First a Workforce Development Board that is 
diverse, committed, and visionary. A board that gives 
unselfishly of their time who always put the needs of the 
consumer first and not only wants, but expects to do more.
    <bullet> Palm Beach County's success is a result of the 
Workforce Development staff who hold the same high standard and 
traits as those of the board.
    <bullet> I strongly feel performance based contracting is a 
major influence in our county's success, a process that clearly 
identifies the outcome that is expected for the consumer in 
order to receive payment for services by the contractor and 
subcontractors.
    <bullet> Finally, success is due to the hard efforts by the 
direct service provider, its partners and/or sub-contractors 
and a host of community organizations and volunteers who 
provide education, training, remediation, assessment, job 
placement and competent input regarding service needs specific 
to our community.
    There are others who I have not mentioned who played a role 
in welfare reform in Palm Beach County. There had to be, how 
else could the welfare roles numbering approximately 5,600 
individuals in late 1996 be reduced to approximately 1,382 
currently here in Palm Beach County.
    For welfare reform to continue to work and be successful, I 
strongly suggest to you, Congresswoman Johnson and Committee 
Members that the majority of individuals remaining on the 
welfare roles today have service needs quite different than 
those who have achieved their successful outcomes. Many 
individuals who remain on today's roles face multiple barriers 
to employment. In order to assure continued success, 
legislation needs to address and provide for the following:
    1. Additional time and resources to remediate the multiple 
barriers to employment. To address such issues as, but not 
limited to; lack of or no work experience, remedial education, 
mental health/substance abuse issues, financial planning/credit 
counseling, supportive housing the legal issues.
    2. The addition and/or expansion of comprehensive case 
management services to assure the coordination and follow-
through in such critical areas of medical services, child 
support, child care, housing, parenting skills and personal 
adjustment.
    3. Career enhancement and related supports that faciliate 
and support on-going training for the thousands of individuals 
who have secured employment and moved from the welfare rolls to 
now the working poor rolls. The future welfare reform program 
needs to elevate skills and earnings in order for individuals 
and families to achieve full and long lasting vocational and 
economic independence for it's graduates.
    4. Finally, a public transportation system that can support 
those riders who work night and weekends.
    I Thank You for the opportunity to present my observations 
regarding welfare reform to you and your subcommitted today.

                                <F-dash>


    Mr. Foley. Bill Pruitt is the Chairman of the Palm Beach 
Work force Development Board and I welcome him, and also he has 
been to Washington several times to make sure we up there get 
it right. Thank you for your input.

   STATEMENT OF WILLIAM E. PRUITT, JR., CHAIRMAN, PALM BEACH 
     WORKFORCE DEVELOPMENT BOARD, WEST PALM BEACH, FLORIDA

    Mr. Pruitt. Thank you, Congressman. I appreciate you coming 
down here to seek our perspective on the local level.
    And as flexibility has been a little bit of the program 
today, I had the flexibility of having heard some of the other 
presenters, so I am going to deviate a little bit from my 
prepared statement, as I was told I could do.
    But first of all, I wanted to let you know a little bit 
about our Board. We are a combined WEA, WAGES and Work force 
Development Board. Gives us a little heartburn during 
nomination time to make sure we comply with each of the 
requirements of those three different Acts, but we have managed 
to do it. To give you some sense of what our Board makeup is, 
we have the Regional Administrator-Jobs and Benefits, the 
District Administrator of Children and Families, an Urban 
League representative, the Community College President, School 
Board Superintendent, several representatives of private 
educational institutions in the area, a WAGES participant. We 
amended our bylaws to include someone who has gone through this 
program from the other side, to advise us on what it is like. 
Representatives of organized labor, the County commission 
Chairperson and 19 representatives of the business community, 
which is a majority and which is required by statute. We have 
been very lucky here, we have had cooperative partners. All of 
those people, the business community, the college, the school 
board, the Department of Labor and Children and Families have 
worked very well with us. It has not always been perfect, we 
have bumped along and butted heads on occasion, but all of 
those people, all of those agencies have helped us achieve the 
successes that we have achieved so far and a level of success 
that we are very proud of. And that is why we wanted to show 
you what we have here today.
    But continued flexibility is important to allow us to think 
outside the box, to go beyond the boundaries of what normal 
welfare has meant and to explore other opportunities. Now we 
have placed a strong emphasis on business in this particular 
Board and through that, we strive to see the welfare customers 
as customers, as individuals, not as cases. And we try to serve 
that individual to improve that individual to fit them into a 
job. But we also see the business community as a customer that 
we have to serve and recognize the needs of that community and 
react to the needs of that community.
    We have been active and through private sector management 
practices, continuous process improvement and results oriented 
and mission driven systems, we have changed the culture of 
welfare I think in this community. We are hoping to continue to 
inspire the business community to return to the table and to be 
a partner in this development because we recognize that that is 
where our product, the people we are trying to help, go.
    We here have gone from 5600 people on the rolls to 1350 
currently. We are very proud of that. But our success is not 
going to be measured in that. Our success will be measured by 
the faces that were in that video and where they end up when 
they are of age. That is our focus.
    With regard to some of the questions asked by the panel, we 
have partnered with the McArthur Foundation, Florida-Atlantic 
University and Department of Children and Families is also 
helping us fund this survey to be conducted by Florida-Atlantic 
University on the impact of welfare reform on children in Palm 
Beach County. We look forward to getting that information back 
so that we can react and move forward, hopefully in the right 
direction.
    With regard to funding--I think one of you all had a 
question with regard to funding--we bonus our Executive 
Director if he finds outside funding, that is part of his 
incentive package. And we set goals for him and we make sure--
--
    Mr. Foley. He is squirming back there.
    Mr. Pruitt. He had better be. We have created an intake 
system, common intake system, and Sharon Merchant was 
instrumental in helping us get the funds for that and I again 
want to thank her publicly for that.
    But if there is anything you can do, the interest you have 
expressed in flexibility in the eligibility would be a great 
help to us. It is not fair to the participant, it is not fair 
to the provider to make them go through all these different 
hurdles. There should be one intake, you are in; now how can we 
help you, and let us study it and see what we can do and where 
we can take you.
    If you could go back and eliminate the duplication, we 
would be most appreciative. Continue to provide us that 
flexibility so that we can serve our constituency here.
    Thank you.
    [The prepared statement and an attachment follow:]

Statement of William E. Pruitt, Jr., Chairman, Palm Beach Workforce 
Development Board, West Palm Beach, Florida

    Good morning madam chair, distinguished members of the 
Congressional Panel and Secretary Kearney.
    Welcome to Palm Beach County--one of the first sites to 
privatize the delivery of Welfare Programs at the local level. 
Our county is a 2,045 square mile microcosm of our country. 
From east to west, from the Atlantic Beaches to the shores of 
Lake Okeechobee, there is virtually every economic level and 
multiple cultural experience, from passive income on the beach 
to migrant farm labor in the west. Over the last two years, we 
have reduced our rolls from 5,600 welfare recipients to less 
than 1,350.
    The success of Welfare Reform is certainly not limited to 
those who have left public assistance over the last several 
years of this venture. Success will be measured in 15 to 20 
years when their dependents can avoid welfare as a way of life.
    The unavailability of good child care and reliable 
transportation present barriers not only to welfare recipients, 
but also to many individuals who wish to work but have not been 
able to obtain full time or better paying employment because of 
these barriers. We have also learned that many agencies use 
different criteria to establish eligibility for various 
programs.
    One recommendation, which we ask you to consider, is to 
develop a single set of criteria of eligibility for all 
programs--Tanf, Food Stamps, and Housing. This would minimize 
the amount of dollars that are spent for eligibility, thus 
freeing those dollars for services. Further, you could 
reconsider the matching requirements of welfare to work. It 
simply adds additional criteria for further eligibility review. 
This is more counterproductive than productive to both provider 
and recipient. If our one stop centers are to be successful, 
eligibility should be streamlined and should be identical for 
all programs where income level is an eligibility requirement.
    If the first step is to secure employment, then the second 
step, which is of equal importance, is to retain that job.
    In order to address the problem of recidivism, we must look 
at the potential causes. Sometimes it is a matter of a lack of 
reliable or affordable transportation and child care. Sometimes 
it is the lack of a proper Educational Foundation. Sometimes it 
is a communication or cultural barrier between the individual 
and his/her new supervisor, which results in the individual's 
termination. The outcome can result in depression and a return 
to the previous way of life.
    We know that we have a great economy, we know that entry 
level jobs abound throughout various industries and we know 
that employers are expanding their businesses. We know that new 
jobs are requiring higher skill sets, better communication and 
better writing skills. This information was affirmed by 
approximately 5,000 employers in our own market through our 
``Survey 2000.'' This survey also identified employers willing 
to hire appropriately skilled welfare recipients. On the other 
side of the issue, we know that many W-A-G-E-S participants 
lack good communication skills. They lack proper education and 
they lack technical skills. We must provide the business 
community with an individual who has these skills.
    We have now shown that transforming people from welfare to 
work can be achieved. Now we must work on Educational skill 
attainment and job skill development to ensure that job growth 
and continuation of employment is achieved. In our own county, 
62% of the W-A-G-E-S participants whom we have served lack a 
high school diploma or G-E-D.
    We must minimize recidivism by providing continuing 
educational opportunities for individuals who participate in 
the W-A-G-E-S Program.
    The current workforce philosophy is work first. finding a 
job is the first and primary expected outcome. However, 
minimizing the loss of job after job and focusing on job growth 
and increased wages requires that we be able to be more 
flexible in providing literacy training, G-E-D preparation and 
other basic skills at non-traditional times. If we review the 
reports issued by the state wages board, we find that many of 
the jobs these individuals receive are part time and at a wage 
of only $6.00 to $7.00 per hour. However, it is during this 
period of part time employment that offers the greatest 
opportunity for us to provide Educational Development, skill 
development and continuous support through case management. For 
this reason, we have made literacy labs including G-E-D, 
available in each of our service centers. Yet we still findW-A-
G-E-S recipients reluctant to avail themselves of these 
services.
    In attempting to determine the impact of recidivism, we 
discovered that the information kept by The Department of 
Children and Families, Job Services AND Lockheed Martin, our 
contractor, was meant to meet Federal reporting requirements, 
but was not conducive for local decision making and management 
purposes. Thus in 1998, we developed a written survey that was 
directly mailed to those 5,600 enrolled wages participants from 
1996, in order to collect the data needed. We sent two mailings 
and made numerous follow-up telephone calls. Nearly 47% 
reported that they were employed, working approximately 33.5 
hours per week at an average wage of $7.07 per hour. This 
results in an average gross weekly wage of $236.85 or 
$12,315.94 per year. Our board has not been able to accept this 
as an outcome for satisfactory self-sufficiency. Of course, 
self-sufficiency is accomplished on an individual basis, 
however, in our community, we have benchmarked self-sufficiency 
at 200% of the poverty level or roughly $25,000.00 for a family 
of two.
    Overall, the responses indicated an extremely low 
utilization of the available services. This may be a reflection 
of the work first philosophy that encourages W-A-G-E-S 
participants to secure employment before applying for 
additional assistance. Many who secure employment never return 
for additional available services. This reflects a lack of long 
term planning and ultimately limits their income potential. 
Alternatively, participants may be unaware of the services that 
are available to them. This is strongly indicated in 
participant responses to the opening survey question.
    This year we created a coupon booklet containing all 
services provided. This will be given to each W-A-G-E-S 
participant to ensure that they will be knowledgeable of the 
services in very clear terms and be able to tear out the 
coupons to access specific services. Further, we established a 
W-A-G-E-S help line that is monitored by a local provider, 
Crisis Management Services, and which is available to W-A-G-E-S 
participants and all customers 24 hours per day, seven days a 
week.
    To better address this issue, we contracted with our W-A-G-
E-S direct provider, Lockheed Martin IMS, Who agreed to extend 
their benchmarks for payment to include 360 days. The 
incentive, therefore, is for Lockheed Martin to devise better 
ways to ensure that transition and retention is higher thereby 
reducing recidivism. This experimental extension has just 
become operational this past July 1999.
    We are also participating with the Children's Services 
Council, The MaCarthur Foundation and The Department Children 
and Families in funding a survey conducted by Florida Atlantic 
University on the ``Impact of Welfare Reform on Children in 
Palm Beach County.'' The study will be completed within the 
next several months. From the information gathered though this 
survey, we hope to take the next step in the continuous process 
of improvement.
    In Palm Beach County, we have been blessed with cooperative 
partners. The Department of Labor, The Department of Children 
and Families, the School Board, Palm Beach Community College, 
The Business Development Board, The Business Community and 
Lockheed Martin IMS, together with many others have enabled us 
to achieve a level of success in this county with regard to 
Welfare Reform. The understanding and commitment of those same 
participants has also allowed us to begin to explore processes 
and ideas never before implemented and which are outside the 
traditional boundaries of the old process. To this end, 
continued flexibility is important and necessary for us to 
partner with business to ensure that we are providing the 
proper training, counseling and education and to react timely 
to the rapidly changing needs to the economy and the job 
market.
    We ask that you eliminate the duplication in programs. We 
ask that you review all Federal Programs that provide 
assistance including Housing, Transportation, Education and 
Training Programs in order to develop one set of criterion so 
the individuals can receive the full array of services they 
require without working through different programs, each 
somehow unique and with its own eligibility requirement. We 
feel that by providing local flexibility to address the needs 
of each community with appropriate oversight, these issues can 
be addressed and resolved and people can leave welfare rolls to 
become productive upwardly mobile members of our community. We 
think welfare to work will change to work to work as 
individuals continue to acquire additional skills and achieve 
higher economic successes as they learn and earn.
    Thank you for your continued commitment and leadership and 
for taking the time to seek our input and the local level 
perspective. 
[GRAPHIC] [TIFF OMITTED] T9754.016


                                <F-dash>


    Mr. Foley. Thank you. Our next presenter will be Gerald 
Miller, Senior Vice President and Managing Director, Lockheed 
Martin IMS from Austin, Texas. Gerald.

STATEMENT OF GERALD H. MILLER, PH.D., SENIOR VICE PRESIDENT AND 
  MANAGING DIRECTOR, PRIVATE-SECTOR REFORM SERVICES, LOCKHEED 
                   MARTIN IMS, AUSTIN, TEXAS

    Dr. Miller. Thank you. Chairman Johnson, Congressman Foley, 
Congressman Cardin. As the former Director of Michigan's 
successful ``To Strengthen Michigan Families'' welfare reform 
initiative and currently as Managing Director of private-sector 
welfare reform services within Lockheed Martin IMS, I 
appreciate the opportunity to speak to you today about 
Florida's work force development system and Federal welfare 
reform legislation.
    I am proud to stand before you as a witness to your vision. 
Welfare reform is working. It is working in Florida and it is 
working throughout the nation. The facts are indisputable. More 
families than ever are breaking the cycle of dependency, 
trading a welfare check for a paycheck, and building life-long 
skills for long-term self-sufficiency.
    Welfare reform works because, as a governing body, you had 
the foresight to know that long-term change requires the 
involvement of all sectors of society--public, private, 
education, non-profit, business community and faith-based 
organizations. Here in Palm Beach County, we partner with 
Goodwill Industries, as Marv stated here; with Palm Beach 
Community College; with Florida-Atlantic University; with 
Lutheran Services and other community-based organizations.
    Together, we have effectively changed the debate from one 
of entitlements to one of personal responsibility, not only 
from the client but from every state, every community and every 
individual.
    As an early implementation state, the State of Florida 
ventured into uncharted waters. Florida set out to create a 
customer-driven delivery system with all services available 
under one roof--a one stop system that you have seen today.
    Florida's customer-friendly one stop system has increased 
customer recruitment and participation by eliminating the 
confusing maze of job development programs once scattered at 
several locations throughout the communities. Now all programs, 
all activities, all information are available at a single site, 
as you saw. In Florida, there is no wrong door, every door is 
an entryway to opportunity.
    As the largest provider of welfare and work force services 
in Florida, Lockheed Martin IMS has helped more than 35,000 
families find jobs. Equally important, more people are being 
retained and promoted in jobs, leading to long-term self-
sufficiency.
    Our solution in implementing the visions of local 
coalitions has been to create a professional, business-like, 
customer-friendly environment that customers want to return to, 
providing job seekers not only employment skills, but life 
skills as well, while concentrating from day one on job 
retention in their efforts.
    The private sector has proven an invaluable resource in 
implementing welfare reform. Working in true partnership, as I 
mentioned, with local organizations, the private sector has 
acted as a broker of community resources, while leveraging 
needed human, financial and technological resources to re-
engineer a more effective delivery model.
    As mentioned, competitive procurements have led to greater 
accountability and a demand for innovations in a system once 
focused on helping people onto welfare, rather than helping 
people to break the cycle of poverty.
    It is a fitting tribute to Executive Director Ken 
Montgomery, Chairman Bill Pruitt here, the Palm Beach Work 
force Development Coalition in which Lockheed Martin IMS is a 
provider, that the Committee has chosen Palm Beach to hold this 
important hearing today.
    Under Mr. Montgomery's leadership, Palm Beach has achieved 
the highest participation rate among all urban areas here in 
Florida.
    Madam Chairman and Members of the Committee, even with all 
this success, there is still important unfinished business that 
needs to be done. Clients can and should be better served by a 
fully integrated system.
    Madam Chairman, while the Committee has made great strides 
in reforming welfare, TANF, Washington has failed to take the 
same bold necessary steps in reforming food stamps and 
Medicaid. As a result, the Federal bureaucracy has blocked 
efforts to provide better services to TANF clients, by 
prohibiting innovation in determining, as has been mentioned, 
eligibility.
    I urge the Committee to propose legislation giving states 
the flexibility and authority to allow eligibility for food 
stamps and Medicaid to be determined by local service 
providers, as is the case with most other programs here in the 
one stop centers.
    Welfare reform is working but it can work even better. We 
ask your assistance in helping us stay on the right track, 
opening doors of opportunity for even more Florida families in 
need.
    Thank you, Madam Chairman. I am happy to answer any of your 
questions.
    [The prepared statement follows:]

Statement of Gerald H. Miller, Ph.D., Senior Vice President and 
Managing Director, Private-Sector Welfare Reform Services, Lockheed 
Martin IMS, Austin, Texas

    Chairman Shaw, Chairman Johnson, members of the 
subcommittee, as the former Director of Michigan's successful 
``To Strengthen Michigan Families'' welfare reform initiative, 
and currently as Managing Director of private-sector Welfare 
Reform Services, within Lockheed Martin IMS, I appreciate the 
opportunity to speak to you today about Florida's workforce 
development system and federal welfare reform legislation.
    I am proud to stand before you as a witness to your vision. 
Welfare reform is working. It's working in Florida and it's 
working throughout the nation. The facts are indisputable. More 
families than ever before are breaking the cycle of dependency; 
trading a welfare check for a paycheck, and building life-long 
skills for long-term self-sufficiency.
    Welfare reform works because as a governing body, you had 
the foresight to know that long-term change requires the 
involvement of all sectors of society--public, private, 
education, non-profit, business, community and faith-based 
organizations.
    Together, we have effectively changed the debate from one 
of entitlements to one of personal responsibility--not only 
from the client, but from every state, every community, every 
individual.
    As an early implementation state, the State of Florida 
ventured into uncharted waters. Florida set out to create a 
customer-driven delivery system with all services available 
under one roof--``One-Stop.''
    Florida's customer-friendly One-Stop system has increased 
customer recruitment and participation by eliminating the 
confusing maze of job development programs, once scattered at 
several locations throughout communities.
    Now, all programs, all activities, all information are 
available at a single site. In Florida, there is no ``wrong 
door.'' Every door is an entryway to opportunity.
    As the largest provider of welfare and workforce services 
in Florida, Lockheed Martin IMS has helped more than 33,000 
people find jobs. Equally important, more people are being 
retained and promoted in jobs, leading to long-term self-
sufficiency.
    Our solution in implementing the visions of local 
Coalitions has been to create a professional, business-like, 
customer-friendly environment that customers want to return to, 
providing job seekers not only employment skills, but life 
skills as well, while concentrating on job retention from day 
one.
    The private sector has proven an invaluable resource in 
implementing welfare reform. Working in true partnership with 
local organizations, the private sector has acted as a broker 
of community resources, while leveraging needed human, 
financial and technological resources to re-engineer a more 
effective service delivery model.
    Competitive procurements have lead to greater 
accountability and a demand for innovations, in a system once 
focused on helping people on to welfare, rather than helping 
them break the cycle of poverty.
    It is a fitting tribute to Executive Director Ken 
Montgomery and the Palm Beach Workforce Development Coalition, 
in which Lockheed Martin IMS is a provider, that the Committee 
has chosen Palm Beach to hold this important hearing today.
    Under Mr. Montgomery's leadership, Palm Beach has achieved 
the highest participation rate among all urban areas in 
Florida.
    Even with all this success, there is still important 
unfinished business that needs to be done. Clients can and 
should be better served by a fully integrated system.
    Under the leadership of Governor Bush, Secretary Kearney 
and Don Winstead, Palm Beach is embarking on a pilot project to 
improve the system, but ultimately, a coordinated solution is 
needed nationwide.
    Madam Chairman, while the Committee has made great strides 
in reforming welfare, Washington has failed to take the same 
bold steps in reforming Food Stamps and Medicaid. As a result, 
the federal bureaucracy has blocked efforts to provide better 
services to TANF clients, by prohibiting innovation in 
eligibility determination.
    I urge the Committee to propose legislation giving states 
the authority to allow eligibility for Food Stamp and Medicaid 
to be determined by local providers, as is the case with most 
other programs in the One-Stop Centers.
    Florida's One-Stop ``No Wrong Door'' system is working. But 
it can work even better. We ask your assistance in helping us 
stay on the right track, opening doors of opportunity for even 
more Florida families in need.
    Thank you Madam Chairman. I am happy to answer any 
questions.

                                <F-dash>


    Mr. Foley. Thank you, Gerald. Our final presenter, Corletta 
Clay from Asili Resource Center.

 STATEMENT OF CORLETTA N. CLAY, SEVEN PILLARS GROUP INC., WEST 
                      PALM BEACH, FLORIDA

    Ms. Clay. Let me just preface my commentary with the fact 
that, like many of those who spoke before me, I too agree that 
welfare reform is working on many levels--if you know how to 
work it.
    I just want to talk a little bit today to our honorable 
legislators about how that can work better. I want to present 
to you the anti-view, the client's perspective, which is often 
very finite, more finite than the eagle's eye view which a 
policymaker might have. To the ant, a molehill can look like a 
mountain.
    I want to talk about two areas that need some tweaking.
    Access. In a model that says that it addresses the barriers 
of child care, Medicare, food stamps and transportation, how do 
we get people to where these resources are? How do they get to 
what they need? There are still too long waiting lists for much 
needed child care. There are still too many people unsure of 
how to access the services they need to make their attempts at 
self-sufficiency successful. There are too many people who do 
not even know what is available to them.
    How do people move more easily from point to point in this 
cumbersome system where very often the frontline staff do not 
even know how to do that? It is not the staff's fault--
constantly changing guidelines and regulations coming down 
faster than can be processed or implemented, large impossible 
caseloads, turnover and the performance-based paper pushers at 
the top do not make this easy.
    Unfortunately, the new reform sometimes looks a lot like 
the old way of doing business. There are still literally layers 
upon layers of administration and bureaucracy. And we know the 
one stop--even though I believe that we have in Palm Beach 
County one of the best in the state, under the leadership of 
the most compassionate and responsive person in his field, Ken 
Montgomery--the one stop is still not a one shot deal and 
people are still being given the run around. How can we make 
this client-driven system actually become user friendly? Maybe 
I need a book, ``Welfare Reform for Dummies.'' We have to begin 
to teach clients how to advocate in their own behalf and how to 
ask the right questions to get the desired results. Some would 
label clients hard to serve, but I say that maybe we are hardly 
serving in their best interest.
    Solutions to this could be system navigators and advocates 
working in conjunction with frontline staff, trained to help 
people get what they want and to where they need to be.
    Definitely more inclusion and improved collaboration and 
utilization of private non-profits, churches and non-
traditional partners.
    Lastly, livable wages. How do we realistically address this 
challenge within the confines of a work-first model? We must 
use a new kind of creativity to get people with a low-skills 
base into jobs, which will provide a means of support and a 
chance for some economic growth.
    Yes, people are working, but is a mother of five working at 
a minimum wage job--and dare I say in Palm Beach County--in a 
position of strength and sustainability? I do not think so. 
Where is the light at the end of the tunnel for those countless 
hundreds trapped on the dead end super highway? Indeed, where 
is the tunnel?
    Some solutions to this could be a serious study and 
implementation of other models which do combine work and 
training and education.
    In-depth career counseling versus job training--career 
versus job.
    Finding a tool that will allow us to hone in on 
individuals' natural God-given talents and use them in a career 
which will allow them to move along the economic continuum.
    And then last, the creation, development and investment in 
businesses which will put people to work at livable wages and 
offer the chance for professional personal growth and 
expansion.
    Thank you.
    [The prepared statement follows:]

Statement of Corletta N. Clay, Seven Pillars Group Inc., West Palm 
Beach, Florida

Access:

    In a model which says that it addresses the barriers of 
childcare, transportation etc: How do we get the people to 
where the resources are? How do they get what they need? There 
are still long waiting lists for much needed childcare. There 
are still too many people unsure of how to access services 
needed to make their attempts at self-sufficiency successful. 
There are too many who don't even know what is available.
    How do people move more easily from point to point in this 
cumbersome system? Where very often the frontline staff don't 
even know how to do it. It's not their fault: constantly 
changing guidelines and regulations coming down faster than can 
be processed or implemented; large impossible caseloads, 
turnover; and performance-based paper pushers at the top don't 
make it easy.
    Unfortunately, the new reform sometimes looks a lot like 
the old way of doing business. There are still literally layers 
upon layers of administration and bureaucracy. We know ``One 
Stop'' is not a ``One Shot'' deal; people are still being given 
the run around. How can we make this client driven system 
``user friendly''? Maybe I need a book, ``Welfare Reform for 
Dummies?'' We have to begin to teach clients to advocate in 
their own behalf. How to ask the right questions to get to the 
desired results. Some would label clients ``hard-to-serve,'' 
maybe we're ``hard ly serving'' in their best interest.

Solutions:

    <bullet> System Navigators and Advocates, working in 
conjunction with line staff, trained to help people get to what 
and where they need to be.
    <bullet> More inclusion, improved ``collaboration and 
utilization'' of private non-profits, churches, and non-
traditional partners.

Livable Wage

    How do we realistically address this challenge within the 
confines of a work-first model? We must use a new kind of 
creativity to get people with a low-skills base into jobs, 
which will provide a means of support and the chance for 
economic growth.
    Yes, people are working...but is a mother of five working a 
minimum wage job (dare I add...living in Palm Beach County) in 
a position of strength and sustainability. I don't think so. 
Where is the light at the end of the tunnel for those countless 
hundreds trapped on the ``dead-end job'' super highway? Indeed, 
where is the tunnel?

Solutions:

    <bullet> Serious study and implementation of other models 
which combine work training and education.
    <bullet> In depth career counseling vs. job training.
    <bullet> Find a tool that will allow us to hone in on 
individuals natural God-given talents and use them in a career, 
which will allow them to move along an economic continuum.
    <bullet> Creation, development and investment in businesses 
which will put people to work at a livable wage and offer the 
chance for professional growth and expansion.

                                <F-dash>


    Mr. Foley. Thank you very much. Ms. Johnson.
    Chairman Johnson. Thank you very much; thank you all for 
your testimony, it was really interesting and raises--gives us 
a lot of information and raises more questions than we have 
time to ask.
    But Corletta Clay, I would like to comment on your 
testimony, which is testimony that we all know to be true. And 
I hear the plea of this panel and the preceding people 
testifying, that would you please simplify eligibility 
criteria. And you refer elsewhere to other barriers.
    We need to know your recommendations in as specific terms 
as possible and that is why a hearing is a good time to start. 
But we need letters that tell us about barriers and problems 
with Federal laws that need to be rectified. Because unless you 
are at the bottom, you do not see that, you just cannot see it. 
And not only can we not see it because we deal with one law at 
a time, but there are other Committees that have key 
jurisdictions on some of these issues, which would work with 
us, if we called it to their attention. So any follow-up 
information you can give us that is very specific--such as 
there is this law telling us one thing and there is this law 
telling us another thing--is most helpful. If you can break 
that barrier, then we can do such and such. That would be very 
helpful.
    I do think this business of other models that combine work, 
training and education, career versus job, is the next 
challenge. And Ben and I have talked about that at quite some 
length. It is important to get people into some job, so they 
find out that they can work, but the challenge is that with all 
the assessment that you are doing and as good as goodwill is at 
that first entry level, once you have been working 2 years, 
your talents change. I mean you find out things you did not 
know about yourself that nobody could have told you. So we do 
have to develop, in the long run, not just for people coming 
off welfare, but for unemployed people in general, and employed 
people, a place to come back to where you can re-evaluate your 
skills.
    One of the things interesting to me in today's environment 
is how many more people do not go to the state unemployment 
offices, they go to head hunters' offices. Why? Because head 
hunters help you look at who you are and what you have 
accomplished and where you might want to go.
    So I really appreciate your comments, and we are very 
conscious of them and any ideas you can give us--I see the need 
for case management, particularly for certain people who need a 
lot of support to get to that point, but we need to think 
through what are the next set of people. I think your comment 
of navigators is very useful, I was impressed with Ken playing 
out how much the coupons help people--so we get ideas as we go 
around, but it is important for you to think through some of 
those things that go to the heart of the next challenge, which 
is career development, development of more financial 
sophistication. It is a crime that we are not teaching people 
that if they would just save $5.00 every week, in the long run, 
that will multiply. We do not teach them about compounding.
    So I really appreciate your comments, but I want to ask a 
specific question. First of all, I want to make one other 
comment.
    The President recently signed a bill that we wrote last 
year that will make children in foster care, who age out of 
foster care, automatically eligible for the same job search, 
job support, all these services that you offer to people coming 
off welfare. We did pass in the House, a fatherhood bill, that 
will make the fathers of children on welfare eligible for these 
services. Now you have such a high income eligibility guideline 
in this center that it may be that all those folks are eligible 
anyhow. So I do not know whether that is going to make any 
difference to you.
    But we are finding other groups that need these kinds of 
services just as much. And in the end, everybody needs these 
kinds of services whenever they are unemployed.
    We have focused a lot on day care and we see that states do 
not have the right dollars in the right sector of their day 
care industry, but at least there is a structure there and they 
can figure that out. And there is money.
    More difficult for me to determine is are the drug 
treatment resources there. You look at the child abuse 
statistics and you look at what our child caring agencies are 
faced with; you know, 80 percent of family problems have a 
substance abuse component. Are the substance abuse treatment 
resources diverse enough, are there slots, is there money? And 
the second thing that is equally important, are the mental 
health resources there, and is there anybody paying? Do you 
think those are actually a big problem in terms of the people 
you see? Maybe they are not, maybe they are at that level out 
there that you are not getting yet.
    Yes.
    Ms. Clay. I agree that it is a serious problem. Our agency 
works with inner-city youth and families right there on the 
frontlines with the folks that are going through this process, 
this WAGES process. And my commentary about better 
collaborations and more inclusion of private, non-profit, 
faith-based initiatives--I said churches, but I have to be 
politically correct--and non-traditional partners, we could do 
a better job of that. I think oftentimes, a lot of the 
frontline staff who are doing intakes for WAGES clients or 
servicing them do not know what is out there, what is 
available. There is no need to re-invent the wheel, we could 
use what we already have, but we are just not maximizing the 
potential that is already out there.
    Mr. Foley. Marvin.
    Mr. Tanck. I will address the issue about substance abuse 
and mental health services. Most publicly funded substance 
abuse programs and mental health programs get you well enough 
to get you back out the door and even your private funding 
sources are slowly moving in that direction. So it is generally 
too late and too little money to get people to self-
sufficiency, not only vocationally, but also if they have the 
strength mentally and confidence in one's self to pursue a 
vocational activity, which in itself can be therapeutic. But if 
you cannot get to that point, you will never get to the benefit 
of work being therapeutic.
    Mr. Foley. Anybody else? Gerald.
    Dr. Miller. Just briefly, Congressman Johnson, what you 
said I think is absolutely correct. Our experience would 
clearly show--and we have done some studies on this point--that 
the substance abuse issue is clearly now one--of those who are 
still on public assistance, one of the largest barriers and I 
do not think there probably is not enough dollars in this field 
at this stage, there needs to be a focus, and as was mentioned, 
that the primary service provider and others needs to partner 
with groups, and as was mentioned, provide these services, but 
it is a major issue.
    Chairman Johnson. So what I hear you saying is that 
actually, a part of this problem is not even getting into your 
system. So there is no real integration of the Department of 
Mental Health's clientele in their treatment centers with work 
assessment, with the kind of things that might help those 
people see what they could do while they are recovering, what 
they could do part time and eventually what they could do as 
their talents in a sense become freed up. That is an 
interesting point, thank you.
    Mr. Foley. Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman.
    First, let me compliment all of you and compliment the 
private sector and the non-profit sector and the advocacy 
sector for what you are doing to make welfare reform work in 
the state of Florida. And I join the Chairman in his emotional 
response to Rev. Ray's video. It helped us put a face on the 
issue. We talk statistics, but it is that child there who only 
wants a hug at night rather than listening to gunshots is what 
this is all about.
    I must tell you, as I listened to Ms. Johnson's questions, 
it points out that there are a lot of puzzle pieces that we 
have to get together here. Welfare reform should be tools that 
are available, but if you do not have drug treatment available, 
it is not going to work. If you do not have safe day care--Mr. 
Pruitt, I was interested downstairs in the program here, the 
tremendous shortage you have on weekends and nights in getting 
safe child care. Because businesses want people who can work 
weekends, particularly in this community where you have a lot 
of activity over the weekends and nights, the jobs are going to 
be there, so if you do not have day care that is going to give 
you a safe place for your child, you can have all the 
education, all the job skills, all the desire, but you are not 
going to be able to get the type of job that you want. So it 
really does cry out for us to work to put this all together.
    And let me also say, the State of Florida has a large 
surplus--has a surplus of TANF funds, has a surplus generally. 
My State of Maryland has the largest surplus I think in its 
history. The legislature just went into session, we have huge--
and our economy is going strong nationally, we have surpluses 
nationally. Now is the time for us really to take a look at how 
we can invest so that every child can have the right 
opportunity--not to waste money but to put the money where it 
is needed so that these issues can be addressed. So I very much 
appreciate your testimony.
    Let me make just a couple of other observations and if you 
want to respond to it, I will be glad to listen to your 
response.
    Ms. Clay, you mentioned the fact that a person starts to 
work have livable wages. the information supplied to me through 
Florida Impact, an advocacy group, indicates that those 
entering employment off of welfare, the average wage is $5.82 
an hour. Now you need a job, nothing wrong with starting a job 
at $5.82 an hour, but where are you a year or two from now. Are 
you getting part of that American dream that Rev. Ray is trying 
very much to get instilled into people that he is getting to 
work?
    I would be interested to see--and I will tell you, I do 
have hope here in Florida because of your follow-up services 
working with people, staying with people. It is not just 
getting them the job, it is to stay with the individual so that 
the individual has a permanent type of opportunity to be out of 
poverty.
    So--and then another statistic that really troubles me. We 
have a strong economy, we have the lowest numbers of welfare 
rolls, cash assistance in a long time, yet when you look at the 
emergency food assistance programs, the soup kitchens, they are 
having record numbers, the largest in their histories in many 
cases--well the largest in the last decade anyway. So what is 
happening out there? There are some problems.
    Now maybe it is--I am not suggesting that welfare reform is 
causing the problem--I do not believe that. But there are 
problems out there that we have not addressed yet and we have 
to figure out a way to put this together because the Great 
Society does not want to be known for the number of people that 
have to go to soup kitchens at night.
    Mr. Foley. Comments? Yes, Gerald.
    Dr. Miller. Just one on the living wage issue that I think 
Marv mentioned and others, performance-based contracting I 
think is very positive, and we have a number of contracts and 
we see it where we get what is called a pay point by increasing 
the wage of the--helping to increase the, in essence, take-home 
pay of that client. And I think it is a part of this 
innovation, the flexibility that is allowed by local work force 
boards, putting those kinds of structures in, and I think we 
are beginning to see some improvement where we have our case 
managers know that that is a pay point and accountability issue 
and we are beginning to see some progress made in that area.
    Mr. Foley. Yes, Bill.
    Mr. Pruitt. Yes, Congressman, we studied our own group and 
found the average wage to be about $7.07, but our Board has 
said that is not satisfactory, that only comes to about $12,000 
a year. We benchmarked it at twice that, we want our people to 
earn at least $25,000 a year. You are absolutely correct. And 
that is where we have to explore those non-traditional ways 
perhaps or innovative ways of teaching them to improve their 
skills so they move up the ladder. And then we can move more 
people in at the bottom and continue to move them up. Those 
harder to serve people that we have talked about that are going 
to have a little bit more trouble, we get them in as the other 
people move up. And we have got to work at that, you are 
absolutely correct.
    Mr. Foley. Bishop.
    Mr. Ray. That again goes to a degree to the point that may 
be beyond the immediate means of this panel, but not beyond 
your influence in Congress, and that is to the degree that 
there is no self-actualized economy in the community, that the 
individuals are in essence being exported from many times, to 
match to a job available in another part of the county, there 
is a point in which the entry level income is going to far be 
depreciated, given the hopes that they have when they finally 
do get a job. So there comes a point in which without that 
local community-based economy, that has to be spurred through 
some mechanism of monitoring, assessment, re-investment 
policies for local communities, we are going to continue to see 
dashed hopes which in turn lead to despair within the 
community.
    Mr. Pruitt said it earlier, it is the faces on that screen 
of the small ones that are yet to come that all of these 
parents that are finally entering the work force are most 
involved with. They are saying what about my child that is 
coming behind me and at some point, that despair becomes a 
major problem.
    Mr. Foley. Thank you. Corletta.
    Ms. Clay. I just wanted to say that we also need to begin 
to take a look at our state's natural resources. I know here in 
Palm Beach County, we are getting ready to experience a great 
boom in the hospitality industry, we are building hotels, 
convention centers and those types of things, and those are 
jobs which could require very little in terms of high tech 
skills, just people who know how to be people persons, who have 
inter-personal skills, who are very trained in customer 
service, who can provide that industry with the types of 
employees that they are looking for. And even a housekeeper 
starts at $8.00 a hour. So again, taking a look at what the 
natural resources are wherever we come from.
    Mr. Foley. Yes?
    Chairman Johnson. May I comment on this point. Using a 
Federal grant money in revitalizing a neighborhood--now in my 
part of the country there is not necessarily a boom economy and 
particularly in some of the smaller cities that used to be big 
manufacturing centers--and we actually did a door-to-door 
evaluation of who is unemployed in just a succinct 
neighborhood, who is unemployed and who is under-employed.
    What you are doing here does give you a lot of knowledge of 
who is under-employed because you placed them. You know, one of 
the things you might think about, and there has been some work 
done on this at Harvard by a guy named John Porter, Dr. 
Porter--it is not John--anyway Porter is his last name--and 
they did a study in Boston of where some of the big Boston 
employers were, for instance, buying their forms so that they 
could help that forms company in Boston expand employment, buy 
new machinery, hire locally and feed its own business. And you 
might begin to look at local employers--because we did through 
this study then and the tearing down of a big old factory, we 
are now working with the people who are building new factories 
there to try to customize train the people who can walk to 
work. We will not have the commute problem, we will not have 
the transportation problem and we will have secure employment. 
So you might consider, as some of these employers need people 
on the front desk who have some experience, moving some of your 
own people up to those jobs and then moving your own clients 
into those opening jobs. But somehow, we have to do a far 
better job in the community, so that we overcome some of these 
problems that ultimately are going to be hopeless, I think 
particularly in transportation. It does not make sense to try 
to raise a family and commute 45 minutes to work.
    So I really think that if we want to build communities and 
strengthen the fabric of our lives together, we have to be able 
to address these issues--and since you already have such very 
good relationships with your employers as well as your 
employees, I hope you will do some of that and if you are 
already doing it, you will let me know, and if you try new 
things and they work, you will let me know.
    Thank you.
    Mr. Foley. You just used a commercial slogan, so I have 
to----
    [Laughter.]
    Mr. Foley. The fabric of our lives.
    Corletta, you said something and then you backed away from 
it because you said it was politically incorrect. You mentioned 
faith-based organizations and that is why I asked the Bishop to 
be here. I personally feel that people are more comfortable 
dealing in that environment with some of their problems, 
whether it is a lack of literacy, whether it is a lack of hope. 
Would you expound a little bit on why maybe faith-based groups 
should be more active participants in this movement?
    Ms. Clay. Let me correct you, Congressman, by saying that I 
initially said churches but now the buzz word is faith-based 
initiatives.
    Mr. Foley. Oh, Okay.
    Ms. Clay. Which I cannot even say. They are important, 
because as we know, man is spiritual in body and we have been 
working on the problem externally and I think that people are 
beginning to realize now that we have to do this the other way, 
it has to be dealt with from an internal process because 
poverty is a state of being, it is a state of where the mind 
is, it is a mental state as well as it is one of economic 
status. And the churches are in a position where they can do 
this, they have been the cornerstone of many of the communities 
that have the greatest numbers of folks on welfare forever, and 
again, a great natural resource that really has not been tapped 
into in the way that it could be.
    Mr. Foley. If we mention it in Washington, everybody gets 
chills like we are trying to send everybody to church--it could 
be a synagogue, it could be any number of places. But what I 
find important is when people are talking to Bishop Ray about 
their own personal salvation, part of it is I am addicted to 
drugs and I have despair, how can I improve my life. And he may 
have some ready answers. What Nancy and Ben and I have worked 
on in Washington is trying to find a way to integrate the 
system so there in fact in the fatherhood initiative, I think 
we deal with faith-based groups because no better way than 
watching that video to realize a lot of people are proud of 
raising their children.
    Ms. Clay. I do not think we can exclude any help we are 
offered from any arena, wherever it comes from, we cannot turn 
it down.
    Mr. Foley. Bishop, how do you find obviously the movement 
toward self-fulfillment in your own congregation, and then with 
outsiders visiting you frequently?
    Mr. Ray. Well, first of all, let me say that we have been 
privileged to birth effective in December 199 what is now a 
national collaboration that will ultimately be over 50,000 
faith-based organizations involved call the National Center for 
Faith-Based Initiative. And it is based upon the recognition of 
clergy including Floyd Flake, former Member of Congress, who is 
now one of our Board of Governors members, to the inherent 
synergies within our congregations. And not only that, but the 
oftentimes unrecognized silent partnership and affirmative 
partnership of faith-based organizations in dealing with the 
plethora of problems that we have in our communities, and quite 
frankly, as Corletta has accurately stated, many times even 
with welfare when it was strongly current in our communities, 
it has been that hope and that inspiration of a greater day 
coming that has been proffered through their churches that has 
kept people ready and looking for the great opportunities. So 
the personal fulfillment as persons are seeing the things that 
the faith-based organizations provide is immediate 
accountability, assessment, encouragement to keep them in small 
groups where they are talking one to another about what is 
working, what is not, so that the model is not one that is just 
discussed, it is one that is evaluated almost weekly and 
assessed weekly. That is very, very important.
    Chairman Johnson. Reverend, let me just say that I was very 
pleased to see that you are a national organization taking 
shape and growing and then will tell you that one of the 
hardest fought amendments in our fatherhood bill was to try to 
drop the charitable choice language from the welfare bill that 
we brought into the fatherhood bill. And it is going to be very 
important for your coalition to begin to help members and the 
public see how important faith-based participation is; because 
separation of church and state is a profoundly important 
principle in our Constitution and in our lives and you will 
never retain yourself as a free society if you let the 
government start meddling with your religion.
    Mr. Ray. That is right.
    Chairman Johnson. So we do need for your organization to 
begin talking with Members of Congress and working with us 
about how we can help people see how your participation 
provides options, provides support that government cannot 
provide, but does not coerce.
    Mr. Ray. Absolutely.
    Chairman Johnson. So I look forward to our working 
together.
    Mr. Foley. I promised I would get the Chairlady out to a 
plane. I just want to thank everybody.
    Gerald, she did have a question, if you could put it in 
writing, for private contracting, why it is so important in 
this process and are you coordinating with all the various 
players. If you would be so kind as to do that.
    Let me finalize by saying first and foremost I appreciate 
everyone's attendance, particularly my colleagues. And one of 
the things I think came dramatically out of the testimony 
today, beneath the surface, I think one of our greatest 
societal problems is mental illness. We do not talk about it 
enough, it affects homelessness, it affects drug addiction, it 
affects virtually everything that is right and what is wrong in 
our society. and I hope as we talk about these excessive 
revenues that are pouring into the system, TANF dollars, some 
unspent, that maybe part of the formula has to be those that 
are still on welfare are probably there for a reason, they 
cannot function in society without some remedial help.
    I will make the following example, when Russell Weston 
stormed the Capitol in Washington and killed two of our police 
officers, Congress' first response was we have got to make this 
place safer, we have got to put up barricades, a visitor's 
center, detectors, to make ourselves safe while the rest of the 
world was at risk.
    What I think we need to do besides talking about 
securitization of buildings is finding the help necessary for 
Russell Weston, schizophrenia and all the other diseases, and 
why they act out their grief and why they act out their madness 
in such public violence. And I think when you look at 
Columbine, you look at all of these incidents, there is 
something underlying the emotional stability of human beings 
that are acting out rage that is devastating society. And I 
think out of all of this, that should be the focus we hope in 
the next 2 years, those area where then maybe welfare reform 
couple with spiritual reform coupled with an uprising of the 
nation working on some of those that have fallen behind, we 
will be very successful.
    Let me thank you all very much for coming and I want to 
particularly recognize all the staff for Members of Congress 
who are here, if they would rise, and the people from the 
Committee, for making all of these reservations and the 
Development Council for their hospitality today and the 
wonderful hoagie sandwich.
    [Laughter.]
    Mr. Foley. We are adjourned.
    [Whereupon, at 3:01 p.m., the hearing was adjourned.
    [Submissions for the record follow:]

Statement of Hon. Tillie K. Fowler, a Representative in Congress from 
the State of Florida

    Welfare reform stands out as one of Congress' greatest 
success stories during the 1990s. The partnership we have 
forged with Florida and other states has proven that together 
we can move mountains previously considered too much to 
conquer.
    Welfare caseloads are down by an average of 45 percent 
nationwide. More female family heads have entered the labor 
force than ever before. Overall poverty and child poverty have 
declined. The incomes of mothers in the bottom fifth of income 
levels who have left the welfare rolls have increased, albeit 
slightly.
    Florida's WAGES program--Work And Gain Economic Self-
Sufficiency--has been particularly successful. More than 
100,000 welfare recipients have found employment in just three 
years. That is almost a 75 percent decline in the state's 
welfare rolls. In the Jacksonville area, the number of welfare 
recipients dropped 88 percent--the highest percentage in 
Florida. Eighty-five percent of those individuals are earning 
at or above minimum wage, which puts them in a better financial 
position than they were in while collecting welfare.
    Just last month, pursuant to the welfare reform legislation 
Congress enacted in 1996, President Clinton announced this 
year's bonus funding, rewarding states that have moved the most 
welfare recipients into jobs and that have helped those 
individuals to keep their jobs and to earn higher wages. Of the 
27 states receiving such bonuses, Florida showed the greatest 
improvement in job success. That additional money will help 
Florida to further improve its WAGES program and to move more 
welfare recipients into work.
    Like many states, because of the success of its program, 
Florida has accumulated an unanticipated fund to use in 
improving its welfare-related social services. A good portion 
of that money has been put into a sort of rainy day fund to 
hedge against any future economic downturn. Other portions of 
this fund will be put into child care resources, substance 
abuse treatment, and other programs to help these families 
break the cycle of dependency.
    Governor Bush and the WAGES teams across the state know 
well that the success thus far achieved does not mean that our 
work is done. The families still on welfare represent some of 
the most challenging cases. Congress recognizes this as well, 
and is working to expand the options available to states. For 
instance, last year, the House passed legislation championed by 
Congresswoman Johnson, the Fathers Count Act, meant to promote 
the father's role in parenting and family life--a natural 
extension of the reform that has previously focused on welfare 
moms.
    I look forward to continuing to work with my colleagues in 
Congress and with Governor Bush to continue to improve WAGES 
and the other welfare reform experiments being conducted across 
the nation. The families we help today, and the families they 
will become tomorrow, are surely worth no less.

                                <F-dash>


Statement of Miami-Dade/Monroe WAGES Coalition, Miami, Florida

    Pursuant to the details for submission of written comments, 
the Miami-Dade/Monroe WAGES Coalition would like to include the 
following statement:
    It is our understanding that there has been discussion on 
the federal level to ask that states return their savings from 
the TANF block grants. As one of the largest welfare reform 
initiatives, we cannot stress strongly enough how important it 
is for states to continue using those savings for the welfare 
population and the working poor.
    Presently, Florida is serving a population that is 
considered the hardest to serve due to multiple barriers such 
as substance abuse, mental health, literacy issues, and 
language barriers. States can use those savings to develop 
comprehensive programs that will facilitate the hard to serve 
populations entry into the workplace as well as provide needed 
support services that they must have to support the requirement 
of gaining self-sufficiency.
    Another opportunity for TANF savings is the ability to use 
savings to fund preventive programs for the working poor that 
are presently at risk of entering the welfare system. By 
providing the working poor with childcare, transportation, and 
training opportunities we will further our mission of 
eradicating the welfare system, as we presently know it.


</pre></body></html>
